United States Department of Agriculture
Office of Inspector General
No. 68
November 2012




Office of Inspector General

Semiannual Report to Congress
Second Half
April 1, 2012–September 30, 2012




                                          F i s ca l Y e a r   2 012
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD—
April-September 2012
SUMMARY OF AUDIT ACTIVITIES	
Reports Issued	
      Number of Final Reports	                                                                    41
      Number of Fast Reports	                                                                      1
      Number of Final Report Recommendations	                                                    203
      Number of Fast Report Recommendations	                                                       4
Management Decisions Reached	
      Number of Reports	                                                                          35
      Number of Recommendations	                                                                 196
Total Dollar Impact of Reports with Management Decisions (Millions)	
      Questioned/Unsupported Costs	                                                            $269.3
      Funds To Be Put To Better Use	                                                             $0.0
SUMMARY OF INVESTIGATIVE ACTIVITIES	
Reports Issued	                   189
Impact of Investigations	
      Indictments	459
      Convictions	320
      Arrests	423
Total Dollar Impact (Millions)	 $57.5
Administrative Sanctions	         182

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2012)
1) 	 Interagency Communications, Coordination, and Program Integration Need Improvement
	   Related material can be found on pages 7 and 21-23.
2) 	 Strong, Integrated Internal Control Systems Still Needed
	   Related material can be found on pages 1-2, 7-8, 13-15, 19-21 and 28.
3)	 Information Technology Security Needs Continuing Improvements
	   Related material can be found on page 20.
4) 	 Material Control Weaknesses in Civil Rights Should Be Mitigated
	   Related material can be found on page 6.
5) 	 Proactive, Integrated Strategy Is Necessary To Increase Agricultural Commerce and Trade
	   No work was reported during this period.
6) 	 Forest Service Management and Community Action Needed to Improve Forest Health and Reduce Firefighting Costs
	   Related material can be found on pages 27-29.
7) 	 Food Safety Inspection Systems Need Improved Controls
	   Related material can be found on pages 1-2.
8) 	 Efforts to Identify, Report, and Reduce Improper Payments Need To Be Strengthened
	   Related material can be found on pages 6-8 and 19-21.
9)	 Planning Needed for Succession Planning and Reduced Staffing
	   Related material can be found on page 2.
Message from the Inspector General
I am pleased to provide the Semiannual Report to Congress (SARC) for the Office of Inspector General (OIG), U.S. Department
of Agriculture (USDA), for the 6-month period ending September 30, 2012. Overall, our audit and investigative work during
this period has led to significant accomplishments, including 423 arrests, 320 convictions, $57.5 million in investigative monetary
results, 174 program improvement recommendations, and $269.3 million in audit financial recommendations.
OIG continues to work with the Department, Congress, and other Federal agencies to ensure the integrity and efficiency of USDA
programs, safeguard the taxpayers’ investment in these programs, and pursue those who abuse them. In addition to our work on
regular appropriations, we will shortly conclude our oversight of the $28 billion in American Recovery and Reinvestment Act of
2009 (Recovery Act) funds Congress provided to USDA. Currently, we are completing our audits of the USDA programs and
activities funded under the Recovery Act. For fiscal year (FY) 2013, we estimate that we will use approximately 4 percent of our
audit resources to complete the 20 assignments by December 31, 2012. For Investigations, we estimate that 3 percent of our
investigative resources will be devoted to Recovery Act oversight.
This report summarizes the most important OIG activities during the period, organized according to our strategic goals, as outlined
in the OIG Strategic Plan for FYs 2007-2012:
σσ    Safety, Security, and Public Health—OIG has recently finished another in its series of audits responding to congressional concerns
      regarding the efficacy of testing of beef for Escherichia coli O157:H7 (E. coli). Though the beef industry conducts thousands of tests
      daily, we found that the Food Safety and Inspection Service could provide the industry with more specific guidance concerning
      how plants should respond when they have multiple positive E. coli test results in a given day. An OIG investigation also found
      that a Texas meat manufacturer and Kansas food company conspired to defraud the Government by delivering more than 1 million
      pounds of adulterated and misbranded beef to Federal corrections institutions. The two companies were sentenced to pay more than
      $480,000 in restitution and costs.
σσ    Integrity of Benefits—Much of OIG’s resources are directed to helping ensure the integrity of benefits paid to citizens. OIG has
      devoted 54 percent of its investigative resources to protecting the Supplemental Nutrition Assistance Program (SNAP) from those
      who would exploit it. In this SARC period, we have concluded 114 SNAP-related cases, resulting in a total of 220 convictions
      and more than $32 million in restitution and other monetary results. Additionally, our audit of the Farm Service Agency’s (FSA)
      Conservation Reserve Program—a program that provides annual payments to farmers who agree to maintain conservation
      practices—found that FSA did not adequately ensure the reasonableness of its rates and could not support $127 million over the
      10-year life of the contracts.
σσ    Management Improvement Initiatives—We coordinated with the Government Accountability Office (GAO) to issue to Congress
      companion reports summarizing key findings and recommendations related to USDA programs from past OIG and GAO reports.
      We expect that these reports will be of interest to lawmakers as they deliberate on the 2012 Farm Bill. Additionally, OIG continues
      to work with the Department to address longstanding weaknesses in USDA’s information technology (IT) security. One of our
      audits found that, although the Office of the Chief Information Officer (OCIO) received additional appropriated funds of $66
      million in FYs 2010 and 2011, OCIO did not effectively plan, prioritize, and manage its improvement initiatives. An OIG
      investigation resulted in a former FSA County Executive Director being sentenced for conspiracy to commit bank fraud. Ultimately,
      she was sentenced to 27 months’ incarceration and ordered to pay $948,555 in restitution.
σσ    Stewardship Over Natural Resources—OIG also performs audit and investigative work intended to help USDA maintain fixed
      public assets, such as 193 million acres of national forests and grasslands. For example, the Recovery Act awarded the Forest Service
      (FS) $50 million for wood-to-energy projects, but OIG found that FS did not ensure funds were used properly. Based on the grants
      reviewed, we statistically projected unsupported costs of about $9 million.
As Inspector General, I am deeply appreciative of the dedicated work of OIG’s professional staff. Without their commitment to
ensuring the efficiency and effectiveness of the programs USDA provides, we could not present the results summarized in this
SARC. I would also like to thank USDA Secretary Thomas J. Vilsack, Deputy Secretary Kathleen Merrigan, as well as interested
Committees and Members of Congress, for their continued support of OIG’s work.




Phyllis K. Fong
Inspector General
Contents
Safety, Security, and Public Health. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Integrity of Benefits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Management Improvement Initiatives. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

Stewardship Over Natural Resources. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                                                                     Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                     potentially impact the Department’s ability to carry out its
                                                                          mission, OIG places a high priority on such investigations.
Strengthen USDA’s ability to implement safety and
                                                                          In the second half of FY 2012, we devoted 10 percent of
security measures to protect the public health as                         our total direct resources to Goal 1, with 96 percent of these
well as agricultural and Departmental resources                           resources assigned to critical-risk and high-impact work. A
To help USDA and the American people meet critical                        total of 100 percent of our audit recommendations under Goal
challenges in safety, security, and public health, OIG provides           1 resulted in a management decision within 1 year, and 97
independent audits and investigations in these areas. Our                 percent of our investigative cases resulted in criminal, civil, or
work addresses such issues as the ongoing challenges of                   administrative action. OIG issued five audit reports under Goal
agricultural inspection activities, the safety of the food supply,        1 during this reporting period. OIG’s investigations under Goal
and homeland security. Of particular concern is the safety of             1 yielded 24 indictments, 37 convictions, and about $200,000
USDA employees. Since threats against USDA personnel can                  in monetary results during this reporting period.



  Management Challenges Addressed Under Goal 1
  σσ    Strong, Integrated Control Systems Still Needed (also under Goals 2, 3, and 4)
  σσ    Food Safety Inspection Systems Need Improved Controls
  σσ    Planning Needed for Succession Planning and Reduced Staffing



EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                              or ensuring that reports from that system were accurate and
GOAL 1                                                                    supported. APHIS took immediate actions following an alert
                                                                          we issued in 2011 regarding the unapproved IT system, which
The Animal and Plant Health Inspection Service                            was generating overstated figures used in reports provided
(APHIS) Needs to Improve the Control Environment                          to Congress. However, SITC has not yet implemented the
of Its Smuggling, Interdiction, and Trade Compliance                      corrective actions necessary to ensure its reports to Congress
(SITC) Unit                                                               are accurate and supported. APHIS agreed with our
APHIS’ SITC unit works to prevent prohibited agricultural                 recommendations and now has a meaningful plan of action to
products that may harbor plant and animal pests, diseases,                improve SITC’s accountability. (Audit Report 33601-0012-
or invasive species from entering the country and being                   Ch, Effectiveness of the Smuggling, Interdiction, and Trade
distributed. Based on a review of SITC activities, OIG found              Compliance Unit)
that SITC’s control environment did not include a system                  Food Safety and Inspection Service (FSIS) Needs
of management accountability in order to foster efficiency,               To Improve E. coli Testing Policies and Procedures
adequacy, or accuracy in either achieving the unit’s mission or           for Beef
in reporting its results. For example, we found that 90 percent
of the surveys SITC conducts at markets were not successful at            In November 2009, due to concerns regarding the efficacy of
either seizing a prohibited product or in capturing information           E. coli testing of beef trim products, OIG received a
used to identify the importer of a prohibited product. Low                congressional request to investigate the scientific merits and
success rates increase the risk that prohibited products would            potential shortcomings of the N-60 sampling design used to
not be identified and could move through the country,                     test beef trim products. We found that the beef industry was
further spreading foreign plant disease and pests. The review             conducting thousands of tests daily and generally complying
also disclosed that SITC used an unapproved IT system for                 with the FSIS guidance for how to perform those tests.
3 years without informing APHIS’ IT division of its existence             However, FSIS could provide the industry with more specific




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half          1
                                                                Goal 1




guidance concerning how plants should respond when they have         2010, the USDA Under Secretary for Food Safety requested
multiple positive E. coli test results in a given day. Currently,    that OIG review records of noncompliance items that FSIS
there is wide variation among different plants. Additionally,        records and the actions that plant management subsequently
we found that FSIS needs to ensure that its own inspectors are       took to appeal to higher FSIS management levels. Based on
performing tests consistently and according to FSIS’ standards.      our review of the 138 records and 13 enforcement actions that
Finally, FSIS needs to take steps to ensure that small plants        establishments appealed, we determined that FSIS’ procedures
regulated by State meat inspection agencies are being held to the    were adequate and FSIS followed its established procedures to
same sanitary standards as the rest of the beef industry. FSIS       appropriately address appeals. Our analysis of the data also did
agreed with our recommendations. (Audit Report 24601-0001-           not reveal any negative trends or systemic problems related to
31, Application of Food Safety and Inspection Service Sampling       inconsistent treatment or unfounded actions to grant or deny
Protocol for Testing Beef Trim for E. coli O157:H7)                  appeals in particular establishments across the country. We did
                                                                     find that FSIS can improve how it tracks and monitors appeals
FSIS Needs to Ensure Inspection Personnel Conduct
                                                                     of humane handling noncompliance records by citing the
Satisfactory Reviews
                                                                     regulatory justification for any appeals that it grants, ensuring
FSIS employs about 7,800 in-plant inspection personnel               that noncompliance records are written adequately to support
to inspect more than 6,200 slaughter and processing                  the violation, and tracking the time it takes to process appeals.
establishments located throughout the United States and its          We suggested that FSIS consider how its Public Health
territories. We assessed whether FSIS had sufficient inspection      Information System could be utilized to track and monitor
personnel to adequately monitor establishments that process          appeals of humane handling noncompliance records. (Audit
meat and poultry products but, due to certain information not        Report 24601-0002-31, Food Safety and Inspection Service
being tracked by FSIS, we were unable to evaluate the impact of      Review of Appeals of Humane Handling Noncompliance
inspection personnel shortages. We found that inspectors were        Records)
not always able to comply with FSIS policy to visit processing
establishments at least once per day and per operating shift.
                                                                     The Agricultural Marketing Service’s (AMS) Controls
Although unexpected events such as inclement weather                 Over the National Organic Program’s List of Allowed
occur, we noted that FSIS had not established mitigating             and Prohibited Substances Are Adequate
procedures for inspectors to use during subsequent visits.           AMS maintains a national list of synthetic substances that
We also identified that FSIS lacked management controls              can be used in organic production and handling, as well as
to deter inspectors from misreporting their actions during           non-synthetic substances that cannot be used. The National
inspections and that FSIS had also not implemented controls,         Organic Standards Board assists in developing the standards
such as unannounced supervisory reviews and requirements             for such substances. In response to a congressional request
to document specific information that would deter inspectors         regarding the board’s processes for adding new substances to the
from misstating inspection results. We recommended that              national list, we reviewed AMS’ controls over the list as well as
FSIS develop mitigating procedures, enhance its ability to track     a hotline complaint received during our audit. We found that
and follow up after missed procedures, perform unannounced           AMS generally had adequate controls over its processes to either
supervisory visits of inspectors, and enhance its data system.       allow or prohibit the addition of new substances to the national
FSIS generally agreed with our recommendations. (Audit               list, as well as to determine when substances already included
Report 24601-0011-Hy, Assessment of Food Safety and                  on the list need to be removed. We concluded that AMS
Inspection Service Inspection Personnel Shortages in Processing      followed its established process for evaluating the petitioned
Establishments)                                                      substance in question. Accordingly, we did not make any
                                                                     recommendations. (Audit Report 01601-0001-23, National
FSIS Adequately Handled Appeals of Humane
                                                                     Organic Program’s List of Allowed and Prohibited Substances)
Handling Noncompliances
The Humane Methods of Slaughter Act requires that livestock
be slaughtered only by humane methods. On December 22,




2    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                    Goal 1




Texas Meat Manufacturer and a Kansas Food                                based companies. The corn was ultimately used as feed for
Company Reach Settlement Agreement in Beef                               organic dairy and beef cattle. Much of the product produced
Adulteration and Misbranding Case                                        by the dairy and beef cattle entered commerce and was sold to
                                                                         consumers as USDA-certified organic. As a result of selling the
In May 2012, in U.S. District Court, Eastern District of Texas,
                                                                         falsely labeled corn, the Oregon man received approximately
a Kansas food company was convicted and sentenced to pay
                                                                         $193,000 to which he was not entitled.
$88,282 in restitution to the U.S. Bureau of Prisons for its role
in the sale of misbranded meat products. The company’s vice              Nursery Owners Conspire to Illegally Transport
president was also convicted and fined $1,000. In July 2012, a           Quarantined Citrus Plants Through Interstate
Texas meat manufacturer entered into a settlement agreement              Commerce
with the U.S. Attorney’s Office, Eastern District of Texas, and          In April 2012, four Florida residents pled guilty to illegally
FSIS. Under this agreement, the manufacturer will adopt                  transporting quarantined citrus plants through interstate
additional procedures designed to ensure continued compliance            commerce. Our investigation determined that, between
with the Federal Meat Inspection Act and will review existing            May 2010 and March 2011, these individuals prepared false
procedures, books, records, and policies to ensure such                  manifests and invoices to disguise Calamondin citrus plants
continued compliance. The manufacturer also agreed to pay                (which are prohibited from being shipped out of Florida
$392,000 to the U.S. Treasury General Fund as reimbursement              because they can carry citrus canker and citrus greening
for the cost of the investigation. This investigation was                disease) as types of plants that were not subject to the interstate
initiated in March 2009 as a result of an allegation that the            shipping prohibition. In July 2012, all four Florida residents
manufacturer offered for sale 84,000 pounds of adulterated               were each sentenced in U.S. District Court for the Southern
and misbranded beef trimmings. The investigation found that,             District of Florida to 12 months’ probation. Additionally,
from August 2006 through July 2007, the manufacturer caused              two of the individuals were sentenced to 6 months of home
more than 1 million pounds of beef trimmings to become                   detention and 100 and 50 hours of community service,
adulterated and misbranded while being held for sale. The                respectively.
Kansas food company sold, transported in interstate commerce,
and delivered the product to multiple end users and Federal              Iowa Farmer Sentenced to 180 Months in Prison for
correction institutions located in several States.                       Threats
Oregon Man Sentenced to 27 Months in Prison for                          An OIG investigation determined that a farmer made threats
Selling Corn Falsely Labeled as USDA-Certified                           against an FSA County Executive Director (CED) in rural
                                                                         Iowa. The farmer was angry that FSA had not recognized
Organic
                                                                         his claim to leased land that the county court had given to
In April 2012, an Oregon man who sold 4.2 million pounds                 the farmer’s ex-wife in a divorce settlement. In a telephone
of conventionally grown corn falsely labeled as USDA-                    conversation with the CED, the farmer threatened to “blow
certified organic corn was sentenced in U.S. District Court,             away” the CED and the county court. The farmer admitted to
District of Oregon, to 27 months in prison and 36 months of              the OIG agent that he had made the statements to the CED
supervised release for wire fraud. The man, using several aliases        and also told the OIG agent that he could “blow you away”
and a complex shipping scheme, purchased more than 4.2                   if he wanted to. He said he wanted to get people’s attention
million pounds of corn from a number of conventional corn                and figured it had worked. The farmer was charged in State
growers in Washington State. He then sold the conventional               court with making threats and harassment and, when arrested,
corn as USDA-certified organic corn to a company based in                made further threatening statements to local law enforcement
Minnesota. The Minnesota company then unknowingly sold                   officials. In May 2012, the farmer was found guilty by a jury,
the corn as USDA-certified organic corn to three Oregon-                 and in June was sentenced to 180 months in prison.




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half          3
                                                                         Goal 1




    GOVERNMENTWIDE ACTIVITIES—GOAL 1                                                   Districts of Missouri, the Eastern District of North
                                                                                       Carolina, and the Districts of Colorado, Kansas,
    Participation on Committees, Working Groups,                                       Minnesota, North Dakota, and South Dakota, OIG
    and Task Forces                                                                    participates on Anti-Terrorism Advisory Councils.
                                                                                       These councils are umbrella organizations including
    σσ     The Federal Bureau of Investigation’s (FBI) National and
                                                                                       local, State, and Federal agencies and private-sector
           Local Joint Terrorism Task Forces. One OIG special
                                                                                       security representatives that work with the U.S.
           agent is assigned full time to the national task force,
                                                                                       Attorney’s Offices for their geographic areas to disrupt,
           and other special agents work with local task forces.
                                                                                       prevent, and prosecute terrorism through intelligence-
           While the national task force special agent attends
                                                                                       sharing, training, strategic planning, policy review, and
           threat briefings and provides terrorist intelligence
                                                                                       problem-solving.
           products to OIG and other USDA agencies and
           offices, local task forces work on matters that involve                σσ   San Bernardino Rural Crimes Task Force and San
           both the investigation of criminal activity and                             Bernardino Animal Cruelty Task Force. OIG is one of
           intelligence-gathering involving individuals or entities                    several law enforcement agencies participating on task
           that may have connections to terrorist activity or may                      forces to combat crimes in rural areas in southeastern
           provide support for terrorist activity. Overall, OIG’s                      California, with a special focus on animal-fighting
           participation provides an excellent conduit for sharing                     investigations.
           critical law enforcement intelligence and has broadened
           the FBI’s and other law enforcement agencies’                          ONGOING REVIEWS FOR GOAL 1
           knowledge of how to conduct criminal investigations
           connected to food and agriculture.                                     σσ   USDA controls over shell egg inspections (FSIS,
                                                                                       APHIS, AMS),
    σσ     The FBI’s Joint Interagency Agroterrorism Working
           Group. OIG’s Emergency Response Team continues                         σσ   E. coli testing of boxed beef (FSIS),
           to participate in this working group, which develops                   σσ   inspection and enforcement activities at swine
           protocols and procedures for the FBI, APHIS, and                            slaughterhouses (FSIS),
           OIG to coordinate their response to agroterrorism.                     σσ   oversight of research facilities (APHIS),
    σσ     U.S. Marshals Service Fugitive Task Forces. OIG agents                 σσ   verifying credentials of veterinarians employed or
           in Michigan, Minnesota, Mississippi, and North                              accredited by USDA (FSIS, APHIS),
           Dakota participate on these task forces, which were
           established under the Presidential Threat Protection                   σσ   implementation of the Public Health Inspection
           Act of 2000. The purpose of these task forces is to                         System for domestic inspection (FSIS),
           locate and apprehend the most dangerous fugitives                      σσ   Plant Protection and Quarantine Preclearance Program
           and assist in high-profile investigations. In addition                      (APHIS),
           to providing assistance in locating fugitives, task forces             σσ   followup on APHIS’ implementation of the Select
           can provide help in serving warrants.                                       Agent Program (APHIS),
    σσ     Arrowhead Counter-Terrorism Task Force. OIG                            σσ   National Organic Program organic milk operations
           participates in a group of regional law enforcement                         (AMS),
           and emergency response providers, led by the FBI field
                                                                                  σσ   food defense verification procedures (FSIS), and
           office in Duluth, Minnesota, which meets monthly for
           training sessions and sharing information on various                   σσ   FSIS State inspection programs.
           terrorist organizations, as well as related topics, such as
           crisis response scenarios.                                             ONGOING REVIEWS FOR GOAL 1
    σσ     Anti-Terrorism Advisory Councils. In many judicial                     UNDER RECOVERY ACT FUNDS
           districts, including the Northern District of Illinois,
           the Northern and Southern Districts of Iowa, the                       σσ   rehabilitation of flood control dams (Natural Resources
           Eastern District of Michigan, the Eastern and Western                       Conservation Service (NRCS)).




4        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                    Goal 2




Integrity of Benefits
OIG Strategic Goal 2:                                                    the 20 assignments by December 31, 2012. For Investigations,
                                                                         we estimate that 3 percent of our investigative resources will
Reduce program vulnerabilities and strengthen                            be devoted to Recovery Act oversight. Many of our remaining
program integrity in the delivery of benefits to                         projects review how USDA is reporting the results of its
program participants                                                     Recovery Act projects, especially the number of jobs created or
                                                                         saved.
OIG conducts audits and investigations to ensure or restore
integrity in the various benefit and entitlement programs of             OIG continues to work closely with the Recovery Board and
USDA, including a variety of programs that provide payments              other IG offices to coordinate analytical and investigative
directly and indirectly to individuals or entities. Some of these        work of potential Recovery Act fraud. Since the passage of
programs involve significant amounts of Federal funds: USDA’s            the Recovery Act in 2009, we have received more than 100
nutrition assistance programs accounted for $107 billion in FY           allegations of misuse of Recovery Act funds. We continue to
2012, and USDA’s farm and commodity programs accounted                   assess the validity of the allegations and, when appropriate,
for $19 billion in FY 2012. Intended beneficiaries of these              initiate criminal investigations. As of this reporting period, we
programs include the working poor, hurricane and other                   have several ongoing investigations involving potential misuse
disaster victims, and schoolchildren, as well as farmers and             of Recovery Act funds.
ranchers.                                                                In the second half of FY 2012, we devoted 47 percent of
Under the Recovery Act, USDA received about $28 billion                  our total direct resources to Goal 2, with 95 percent of these
in funding for programs in a number of areas, including farm             resources assigned to critical/high-impact work. A total of 100
loans, watershed programs, supplemental nutrition assistance,            percent of our audit recommendations under Goal 2 resulted
wildland fire management, and several rural development                  in management decision within 1 year, and 93 percent of our
programs (such as rural housing, rural business, water and               investigative cases resulted in criminal, civil, or administrative
waste disposal, and broadband). The Recovery Act also                    action. OIG issued 17 audit reports and 1 fast report under
provided OIG with $22.5 million (to remain available until               Goal 2 during this reporting period. OIG’s investigations
December 31, 2012) for “oversight and audit of programs,                 under Goal 2 yielded 426 indictments, 271 convictions, and
grants, and activities funded by this Act and administered by            about $56.5 million in monetary results during this reporting
the Department of Agriculture.”                                          period.

Since the Recovery Act was enacted, OIG has been working
with USDA and the Inspector General (IG) community, as well                  Management Challenges Addressed Under Goal 2
as GAO and the Recovery Accountability and Transparency
                                                                             σσ   Interagency Communication, Coordination, and
Board (Recovery Board), to carry out oversight responsibilities.
                                                                                  Program Integration Need Improvement (also under
Our Recovery Act oversight plan includes proactive, short-
                                                                                  Goal 3)
term, and long-term audit and investigative work. It can be
found on our website at http://www.usda.gov/oig/recovery/                    σσ   Strong, Integrated Internal Control Systems Still Needed
                                                                                  (also under Goals 1, 3, and 4)
OIGSTIMULUSPLAN.pdf.
                                                                             σσ   Material Control Weaknesses in Civil Rights Should Be
With Recovery Act funding for USDA programs and the                               Mitigated
additional oversight funds for OIG being expended, we are
                                                                             σσ   Efforts to Identify, Report, and Reduce Improper
completing our audits of the USDA programs and activities
                                                                                  Payments Need to Be Strengthened (also under Goal 3)
funded under the Act. For FY 2013, we estimate that we will
use approximately 4 percent of our audit resources to complete




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half             5
                                                                Goal 2




EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                         an appropriate course of action and to show that it awarded
GOAL 2                                                               compensation appropriately. OASCR concurred with our
                                                                     recommendations. (Audit Report 60601-0001-23, Office
USDA Needs To Ensure That Office of Advocacy and                     of the Assistant Secretary for Civil Rights’ Oversight of
Outreach (OAO) Grants Are Awarded to the Most                        Agreements Reached in Program Complaints)
Meritorious Applicants
                                                                     The Food and Nutrition Service (FNS) Needs to Ensure It
At the request of the Secretary of Agriculture, OIG performed        Checks That SNAP Participant Information Is Accurate
an audit to evaluate the procedures used by OAO to select FY
2012 recipients of grants funded through the Outreach and            As reported in the SARC, First Half of FY 2012, we have
Assistance for Socially Disadvantaged Farmers and Ranchers           completed a series of audits of SNAP participant databases
Program. Our results indicated that some of the 57 applicants        in 10 States as part of our ongoing efforts to help minimize
selected by OAO for FY 2012 grants may not have been the             fraud, waste, and abuse within SNAP and, per Congressional
most meritorious and deserving applicants. OAO officials             request, to analyze FNS’ tools used to prevent and detect
did not adhere to the agency’s draft policies and procedures,        fraud, and to promote the integrity of reporting. States are
or to the guidelines cited in the Funding Opportunity                required to perform checks of SNAP participant information
Announcement, when selecting the FY 2012 applicants. The             against Federal and State databases to ensure SNAP benefits
selection of less meritorious applicants could negatively impact     go only to those most eligible and in need. The checks can
assistance to socially disadvantaged farmers and ranchers            identify if, for instance, participants were deceased or if people
and could expose the Department to unnecessary criticism             were using deceased individuals’ Social Security numbers.
and, potentially, even legal action. Given these concerns, we        Additional checks can also identify if, for example, participants
recommended OAO not award grants until an independent                are potentially receiving duplicate benefits in the same State or
review panel could reevaluate the applications to ensure that the    benefits from neighboring States.
most deserving applicants will be awarded grants. Departmental       In the second half of FY 2012, we concluded our planned
officials agreed with our recommendations. (Fast Report Audit        series of reviews by issuing our summary analysis of FNS’
91099-0001-21 (1), Controls over the Grant Management                SNAP fraud prevention and detection efforts, in addition
Process of the Office of Advocacy and Outreach—Section 2501          to finalizing work in three States—Massachusetts, New
Program Grantee Selection for Fiscal Year 2012)                      Jersey, and New York. We found that in these States, a total
                                                                     of 13,564 participants were receiving potential improper
The Office of the Assistant Secretary for Civil Rights
                                                                     payments totaling almost $2 million per month. Combined
(OASCR) Needs to Ensure It Adequately Documents
                                                                     with our findings from the 7 previously published reports, we
Settlement Agreements
                                                                     identified a total of 27,044 potentially ineligible recipients and
OASCR resolves civil rights complaints filed against USDA,           $3.7 million in questioned monthly benefits:
closing an average of almost 1,000 program complaint cases
per year since 2005, including 15 cases closed between 2008                              Recipients/Households Estimated Benefits
and 2011 through settlement and conciliation agreements                                       Questioned           per Month
in which USDA awarded over $10.5 million in damages to                   Alabama                 1,639                 $207,989
claimants. With a recently reorganized office and efforts to             Florida                 2,689                 $380,225
improve case handling and reduce backlogs, OASCR has                     Kansas                   907                  $112,831
significantly improved processes and management of settlement            Louisiana               2,374                 $308,074
agreement case files. While our audit disclosed no issues with           Massachusetts            908                  $117,767
the decisionmaking process for conciliation agreements, we
                                                                         Mississippi             1,009                 $123,643
determined that OASCR needs to strengthen its procedures
                                                                         Missouri                 766                  $96,409
for settlement agreements so that it can maintain current
                                                                         New Jersey              4,123                 $569,098
improvements, support its decisions, process cases timely, and
                                                                         New York                8,533                $1,268,260
report them accurately. OIG recommended that OASCR
develop and implement procedures for documenting settlement              Texas                   4,096                 $523,551
agreements to support that settling with complainants was                Total                   27,044                $3,707,847




6    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                   Goal 2




These potential improper payments amount to less than 0.2               acknowledged our concerns, took some corrective action during
percent of the total SNAP benefits paid in FY 2012. We also             the audit, and generally stated that deployment of its new
note that the States have taken rapid action to review the cases        Web-based system would address data concerns. Accordingly,
and are taking appropriate followup action.                             we did not make any recommendations to the agency. (Audit
                                                                        Report 03601-0050-Te, Farm Service Agency 2008 Farm Bill’s
In addition to recommending that FNS require the States
                                                                        Changes to Payment Limitations)
to ensure they perform all necessary checks to ensure SNAP
benefits are reaching only eligible recipients, we evaluated            FSA Needs to Ensure It Pays Reasonable Soil Rental
the tools FNS has at its disposal to prevent and detect SNAP            Rates for the Conservation Reserve Program (CRP)
fraud and also to evaluate the integrity of retailer and fraud
                                                                        FSA administers the CRP, which provides annual payments
reporting. While FNS and States do have tools for ensuring
                                                                        to farmers who agree to maintain conservation practices, such
applicant eligibility and detecting fraud, we found that States
                                                                        as establishing grass cover on farms to prevent soil erosion
either do not make full use of the tools or cannot rely on the
                                                                        and reduce chemical runoff. In 2010, FSA signed contracts
data provided by the tools to take actions related to benefits.
                                                                        involving 4.3 million acres and annual payments totaling
This occurred because FNS does not require States to use all
                                                                        $200 million. Over the 10-year life of the contracts, FSA will
the tools available to them. We also found that FNS does not
                                                                        pay more than $2 billion. OIG reviewed whether FSA had
have tools to effectively estimate a total SNAP fraud rate over
                                                                        effective controls to ensure that these payments were based on
time. We recommended that FNS specify a set of tools that
                                                                        accurate and well-supported soil rental rates. We found that
States are required to use for fraud detection and improve how
                                                                        FSA did not adequately ensure the reasonableness of its soil
it estimates fraud in the program. Generally, FNS concurred,
                                                                        rental rates, as FSA did not adequately document or justify
issued prompt corrective guidance, and acted to respond to
                                                                        not using the most recent NRCS soil productivity figures
OIG’s recommendations. (Audit Report 27002-0011-13,
                                                                        and did not adhere to its policies and regulations for using
Analysis of FNS’ Supplemental Nutrition Assistance Program
                                                                        statistical data when computing the soil rental rates. Due to
Fraud Prevention and Detection Efforts; Audit Report 27002-
                                                                        these problems, OIG questioned $12.7 million in unsupported
0008-13, Analysis of Massachusetts’ Supplemental Nutrition
                                                                        payments ($127 million over the 10-year life of the CRP
Assistance Program Eligibility Data; Audit Report 27002-
                                                                        contracts) and recommended that, for future CRP signups,
0009-13, Analysis of New Jersey’s Supplemental Nutrition
                                                                        FSA ensure that it uses the best available data and require
Assistance Program Eligibility Data; Audit Report 27002-0010-
                                                                        strong evidence for statistical changes. FSA generally agreed
13, Analysis of New York’s Supplemental Nutrition Assistance
                                                                        with our recommendations. (Audit Report 03601-0051-Te,
Program Eligibility Data)
                                                                        Farm Service Agency, Conservation Reserve Program—Soil
FSA Needs to Ensure That Any Increases to Payment                       Rental Rates)
Limitations for Farming Operations Are Bona Fide                        FSA Needs to Ensure County Employees Process
FSA administers a variety of farm commodity, conservation,              Farm Storage Facility Loans Properly
disaster, and loan programs that involve payments subject
                                                                        FSA operates the Farm Storage Facility Loan Program so that
to limitations based on the total amounts that a “person”
                                                                        producers may have access to available funds for financing
may receive each year. The 2008 Farm Bill made significant
                                                                        storage and handling facilities. Producers might use these
changes in how USDA would administer payment limits and
                                                                        loans to construct structures for grain, as well as hay, renewable
determine who is eligible for payments. OIG initiated an audit
                                                                        biomass, fruits and vegetables, and cold storage facilities. Based
to determine whether FSA’s internal controls were adequate
                                                                        on our review of how FSA approved and processed 30 loans
to oversee the changes introduced by the Farm Bill. However,
                                                                        (totaling $4.89 million), as well as how the agency serviced
we determined that FSA’s data were not sufficiently reliable for
                                                                        10 delinquent loans (totaling $728,078), we found that FSA
us to test the controls and answer our objective. We provided
                                                                        county employees did not always process, approve, and service
FSA information on our concerns regarding the quality of its
                                                                        these loans according to the agency’s policies and procedures.
data system and other issues that arose during our review. FSA
                                                                        These errors resulted in $2.2 million in unsupported




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half         7
                                                               Goal 2




disbursements. FSA agreed to implement new policies and             Rural Development (RD) Needs to Improve Its
procedures to strengthen the oversight and accountability of        Controls Over the Rural Rental Housing Program
the program, including providing additional training. (Audit
                                                                    RD’s Rural Housing Service (RHS) administers the Rural
Report 03601-0001-32, Farm Service Agency Farm Storage
                                                                    Rental Housing Program, which provides affordable multi-
Facility Loan Program)
                                                                    family rental housing to low- and moderate-income families,
FSA Needs to Develop Sufficient Management                          the elderly, and persons with disabilities living in rural areas.
Controls to Operate the Biomass Crop Assistance                     OIG determined that RHS needs to improve its controls to
Program                                                             detect the misuse of program funds and to ensure that owners
In the 2008 Farm Bill, Congress established the Biomass             repair the physical deterioration of properties detected by
Crop Assistance Program, a program that, in part, provided          agency inspections. OIG audits uncovered $4.2 million in
matching payments to the owners of renewable biomass                misused funds by 56 percent (18 of 32) of owners nationwide,
to encourage them to collect, harvest, store, and transport         but the agency reported nationwide noncompliance at a rate
(CHST) such material to a conversion facility that would            of just 0.4 percent. Further, we found deficiencies at 192 of
produce heat, power, bio-based products, or advanced                319 properties in our sample and determined that, although
biofuels. In 2009, the program was emphasized as part of            RHS officials had identified 44 of the deficiencies during prior
an effort to decrease the Nation’s dependency on foreign oil.       year inspections, they were unable to compel owners to make
Accordingly, USDA expedited the program’s implementation            required repairs. We recommended that the agency reduce the
and began providing matching payments for the cost of               number of properties required to be examined each year and
CHST biomass. OIG reviewed $30 million of $243 million              use a risk-based approach to select properties for attestation
in CHST matching payments and found that, while USDA                engagements. We also recommended that RHS clarify its
implemented the CHST matching payments program in                   guidance and enforce a graduated scale of penalties. RHS has
accordance with statutory requirements and in compliance with       agreed to the report’s findings and recommendations. (Audit
the directed timeframe, the program was launched without            Report 04601-0018-Ch, Rural Development Rural Rental
sufficient management control structures needed to provide          Housing Program Project Cost and Inspection Procedures)
clear program direction and ensure program accountability.          The Risk Management Agency (RMA) Needs to
Without sufficient management controls, USDA can have               Improve Controls Over the “New Producer” Crop
little confidence that the funds expended during this first         Insurance Option
phase of the program contributed to expanding the use of new
                                                                    To administer the Federal Crop Insurance Program, RMA
biomass sources for biofuels or helped decrease dependence on
                                                                    partners with approved insurance providers (AIP) to provide
foreign oil. OIG also found that, without the management
                                                                    crop insurance policies, including “new producer” policies for
control structures that typically accompany effective Federal
                                                                    those insured persons who have no more than 2 years of history
programs, USDA county office employees often made
                                                                    farming a specific crop. OIG assessed the administration of
errors and inconsistently implemented the program. In
                                                                    new-producer program procedures. For the 2007 and 2008
total, OIG questioned over $400,000 in payments issued to
                                                                    crop years, we identified 19,285 new-producer policies (13
biomass material owners due to these various errors. OIG
                                                                    percent) that had more than 2 years of information in Federal
recommended that USDA take steps to establish an adequate
                                                                    records. Based on a judgmental sample of these, we found that
management control structure for the program that will provide
                                                                    154 of 176 policies were sold to insured producers who were
clear program direction, ensure program accountability, and
                                                                    not eligible for new-producer status. This occurred because
resolve the errors we observed in the field. FSA agreed with all
                                                                    AIPs did not fulfill their contractual responsibilities to verify
recommendations. This report includes findings addressed in
                                                                    whether the producers’ information was accurate. As a result,
two prior Fast Reports. (Audit Report 03601-0028-KC, Farm
                                                                    RMA paid $3.3 million in indemnities and associated costs for
Service Agency Biomass Crop Assistance Program: Collection,
                                                                    57 of these 154 policies. We recommended that RMA deny
Harvest, Storage, and Transportation Matching Payments
                                                                    reinsurance for the 57 improper policies, verify eligibility for
Program)




8    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                    Goal 2




more than 6,000 new-producer policies with indemnities that              had formed a new entity and was conducting the majority of
were not part of our review, take appropriate corrective actions,        his cattle sales under that entity’s name. When FSA personnel
and recover losses. Further, we recommended that RMA                     became aware of this new entity, they notified all the livestock
improve and implement additional controls over new-producer              sale barns in Kansas of their interest in the cattle. At that
eligibility. RMA agreed to all our recommendations. (Audit               point the rancher formed yet another entity and attempted to
Report 05099-0114-KC, RMA: Validity of New Producers)                    continue to sell mortgaged livestock without FSA’s knowledge.
                                                                         He was charged with one count of conversion of mortgaged
Western Oklahoma Farmer Forges Name of USDA
                                                                         property in June 2011.
Official in Order to Convert Cotton and Wheat
Production Payments Mortgaged to FSA                                     Arizona Farmer and Wife Plead Guilty in USDA Farm
In April 2012, in U.S. District Court, Western District of
                                                                         Loan Case
Oklahoma, a farmer was sentenced to 36 months’ probation,                In April 2012, a Pinal County, Arizona, farmer and his wife
104 hours of community service, and ordered to pay fines                 were sentenced in U.S. District Court, District of Arizona,
totaling $3,100 for conversion of mortgaged property. Prior              for theft of Government property. The farmer was sentenced
to sentencing, he paid restitution in the amount of $133,360             to 21 months in prison, followed by 36 months of supervised
to FSA. Our investigation found he forged the name of an                 release. His wife was sentenced to 36 months of supervised
FSA official on cotton and wheat production sales checks made            probation. Both were ordered to pay restitution of $85,000.
jointly payable without the knowledge or consent of FSA and              In April 2010, they received an operating loan for $300,000
deposited the production checks into his personal account.               from FSA. After receiving an initial installment of $120,000,
                                                                         the couple requested another installment of $75,000 to cover
Farmer Obtains and Defaults on USDA-Guaranteed
                                                                         expenses. OIG’s investigation revealed that they spent the
Loan After Pledging the Same Collateral on Multiple                      entire $120,000 in one week. Bank records showed that the
Loans                                                                    farmer and his wife spent $85,000 of the $120,000 on personal
In May 2012, in U.S. District Court, Western District of                 items, including a BMW car. The farmer also gave $20,000
Oklahoma, a farmer was sentenced to 42 months’ probation                 to a friend and spent approximately $5,000 at strip clubs
to include four consecutive weekends in jail, ordered to                 during that 1-week period. The couple was indicted for theft
perform 104 hours of community service, and ordered to pay               of Government property in July 2011, and both pled guilty in
restitution in the amount of $167,325 to FSA and a private               February 2012.
financial institution. Our investigation found that, in June
2009, this farmer failed to notify FSA and the private financial
                                                                         Iowa Producer Debarred From USDA Program
institution that he had pledged $225,000 in collateral that
                                                                         Participation
had been previously pledged as collateral on other loans. He             In September 2012, an Iowa producer who had previously
subsequently defaulted on both his FSA-guaranteed loan and               been convicted of illegally selling grain that was pledged as
another loan with the private financial institution, leaving a           collateral on Commodity Credit Corporation (CCC) loans was
principal unpaid balance of $637,325.                                    permanently debarred from participating in USDA programs
                                                                         and debarred for 36 months from participating in all other
Kansas Rancher Sells Mortgaged Cattle Under                              programs of the United States, with the exception of certain
Fictitious Entities to Hide Sales From FSA                               food assistance programs. He had previously been sentenced
In May 2012, in U.S. District Court, District of Kansas, a               in U.S. District Court, Southern District of Iowa, to 12
rancher was sentenced to 36 months’ supervised release and               months and 1 day of imprisonment and 36 months’ supervised
ordered to pay $83,973 in restitution to FSA after a jury                release, and was ordered to pay $341,923 in restitution. Our
found him guilty of conversion of mortgaged property. In                 investigation disclosed that the farmer obtained FSA loan funds
the summer of 2009, FSA attempted to appraise the value                  for 70,000 bushels of corn and 36,000 bushels of soybeans,
of livestock the rancher had used to secure three delinquent             which he sold without authorization. The farmer has paid the
loans and found the majority of cattle missing. The rancher              restitution in full.




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half        9
                                                                    Goal 2




Grain Elevator Owner Sentenced for Interstate                            SNAP TRAFFICKING
Transportation of Stolen Commodities                                     A significant portion of OIG’s investigative resources are
In June 2012, the owner of a grain elevator was sentenced in             dedicated to ensuring the integrity of SNAP by combating
U.S. District Court, Eastern District of North Carolina, for             the practice of exchanging benefits for cash, which is known
interstate transportation of stolen commodities. In September            as “trafficking.” In the second half of FY 2012, OIG has
2009, the owner entered into an agreement to store grain for             concluded the following SNAP-related investigations and
a third party. The investigation revealed that, in early 2010,           prosecutions:
the third party discovered that more than 400,000 bushels                σσ    Eight Individuals in Georgia Sentenced to Prison
of soybeans valued at $7.2 million and more than 700,000                       Terms in a $5 Million SNAP Fraud Conspiracy. An
bushels of corn valued at $2.8 million were missing from the                   OIG investigation revealed that an organized group of
grain elevator. The investigation further revealed that the grain              individuals opened 13 storefront operations in Georgia to
had been stolen, transported across State lines, and sold by                   defraud SNAP and the Special Supplemental Nutrition
the elevator owner. The owner was sentenced to 60 months’                      Program for Women, Infants, and Children (WIC). From
probation and confined to his home for the first 12 months,                    February 2009 to June 2011, this group illegally purchased
and was ordered to pay $6.9 million in restitution to the third                over $5 million in SNAP and WIC benefits. Program
party.                                                                         participants called the stores and offered their benefits for
                                                                               sale, providing their SNAP card numbers or WIC voucher
Producer Claims False Loss on Corn Crop While                                  codes to the store employees via telephone. After processing
Growing Marijuana                                                              the transactions, store employees delivered the cash to
                                                                               the program participants. To date, 16 individuals have
Based on a referral from RMA, OIG investigated an Illinois
                                                                               been charged in U.S. District Court, Southern District of
producer and found that the producer defrauded USDA by
                                                                               Georgia, with conspiracy or theft of Government funds. In
growing marijuana during the 2008 and 2009 crop years on                       FY 2012, 13 individuals pled guilty in U.S. District Court
acres insured under the Federal Crop Insurance Program.                        in Savannah, Georgia. From March 2012 through July
RMA’s information disclosed that the producer grew marijuana                   2012, eight individuals were sentenced to incarceration
on acres insured during crop years 2008 and 2009, although he                  periods ranging from 9 to 60 months and were ordered to
certified the acres were planted to corn. He submitted a crop                  pay $5.6 million in restitution, jointly and severally with
insurance claim for crop year 2008 and received an indemnity                   their co-conspirators.
payment in the amount of $186,950. He did not submit a                   σσ    Combination SNAP/Marijuana Trafficking Ring
crop insurance claim or receive an indemnity payment for crop                  Dismantled in Detroit. A joint investigation with the
year 2009. The producer was charged in September 2011,                         Michigan State Police uncovered a SNAP trafficking and
in U.S. District Court, Central District of Illinois, with two                 marijuana distribution enterprise that operated from
counts of making false statements, and in January 2012, he                     September 2007 through July 2010. During the course of
pled guilty to one of those counts. In July 2012, the producer                 the investigation, agents seized SNAP and drug trafficking
was sentenced to 5 months’ imprisonment, 5 months’ home                        proceeds, firearms, and marijuana packaged for distribution.
                                                                               In October 2011, the store owner pled guilty to wire fraud
confinement, and 36 months’ supervised release, and he was
                                                                               charges in U.S. District Court, Eastern District of Michigan.
ordered to pay restitution to USDA in the amount of $50,780.
                                                                               In May 2012, the subject was sentenced to 24 months’
                                                                               incarceration, 24 months’ supervised release, and $199,038
                                                                               in restitution.
                                                                         σσ    Michigan Retailer Convicted of SNAP Trafficking. A
                                                                               SNAP trafficking investigation in Hamtramck, Michigan,
                                                                               led to the conviction of a retailer whose mother had been
                                                                               disqualified from the Food Stamp Program at the same
                                                                               location in 1996. During the most recent investigation,
                                                                               agents conducted numerous cash-for-SNAP benefit




10     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                    Goal 2




     transactions with the owner. In June 2010, with the                       OIG notified USDA OIG that they had identified several
     assistance of the Internal Revenue Service (IRS) Criminal                 individuals who received Federal Emergency Management
     Investigation Division and Michigan State Police personnel,               Agency (FEMA) disaster relief monies, which were available
     agents served a Federal search warrant at the establishment,              to Hurricane Katrina victims, even as they were concurrently
     resulting in the seizure of over $30,000 in SNAP trafficking              receiving California SNAP benefits. As a result, three
     proceeds. The store owner ultimately pled guilty to access                SNAP recipients were charged with varying violations,
     device fraud charges and, in May 2012, was sentenced in                   including theft of Government property and mail fraud.
     U.S. District Court, Eastern District of Michigan, to 1                   In February 2008, in U.S. District Court, Central District
     month of incarceration, 9 months’ confinement in a half-                  of California, one recipient was arrested, found guilty, and
     way house, 36 months’ supervised release, and $400,000 in                 subsequently sentenced to 2 years’ probation, and ordered
     restitution.                                                              to pay restitution in the amount of $2,000. In January
σσ   Central Texas Store Owner Sentenced to 33 Months’                         2009, another recipient was indicted on 15 counts of mail
     Imprisonment for Trafficking in SNAP Benefits. In                         fraud and was found guilty on all counts by a Federal jury.
     August 2012, in U.S. District Court, Western District                     In April 2009, the recipient was sentenced to 12 months
     of Texas, a storeowner was convicted of trafficking $1.3                  and 1 day of incarceration, assessed a total of $1,500 in
     million in SNAP benefits in his central Texas convenience                 special assessment fees, and ordered to pay restitution in the
     store and sentenced to serve 33 months’ imprisonment                      amount of $45,464. In January of 2006, a third recipient
     and 36 months’ supervised release and ordered to pay $1.3                 was indicted on eight counts of false statements, false
     million in restitution. Our investigation determined that                 claims, and theft of Government funds. In May 2012, the
     from October 2009 through June 2011, the storeowner                       recipient pled guilty to one count of the indictment and,
     purchased SNAP benefits for half of their true value and also             in June 2012, was sentenced to 5 months’ imprisonment,
     allowed SNAP recipients to use their benefits to buy various              followed by 5 months of home detention, and ordered to
     ineligible items including gasoline, tobacco products, and                pay $21,549 in restitution.
     alcohol. Some of the cash obtained by the recipients was            σσ    Washington SNAP Runner Sentenced to 6 Months’
     used to play video poker at the store. To date, the local                 Imprisonment and $190,000 in Restitution. An OIG
     district attorney has accepted for State prosecution referrals            investigation assisted by FNS and the Seattle Police
     of over 100 SNAP recipients who misused their benefits.                   Department determined that two “runners” were directing
σσ   Louisiana Convenience Store Owner and Employees                           recipients into authorized SNAP retailers in Seattle to traffic
     Involved in $1.7 Million SNAP Fraud. Our investigation                    SNAP benefits. The recipients entered the stores with one
     of two stores in Lake Charles, Louisiana, disclosed the owner             of the two runners and provided their SNAP benefits in
     and two employees fraudulently redeemed over $1.7 million                 return for cash. The runner in turn received food, which
     in SNAP benefits from January 2007 through February                       was then sold to other stores and restaurants. In October
     2010. The investigation also found the subjects used the                  2010, the two runners were arrested and charged with
     fraudulently obtained funds to purchase several properties                several counts of SNAP fraud and wire fraud. In April
     and sports cars, which were seized during the investigation.              2012, one runner pled guilty in U.S. District Court,
     In July 2012, in U.S. District Court, Western District                    Western District of Washington, and was sentenced to 6
     of Louisiana, the owner was sentenced to 78 months’                       months’ imprisonment and ordered to pay restitution of
     incarceration and 36 months’ probation, and ordered to pay                $190,000. The other runner had previously been sentenced
     $1.7 million in restitution. In August 2012, one employee                 to 34 months’ imprisonment and ordered to pay $200,000
     was sentenced to 36 months’ probation and ordered to                      in restitution.
     pay restitution totaling $2,600, and the second employee            σσ    Two Washington Store Owners Pay $739,480 Restitution
     was sentenced to 6 months’ incarceration and 36 months’                   for SNAP Fraud and Trafficking in Contraband
     probation, and ordered to pay $62,000 in restitution.                     Cigarettes. In July 2011, in U.S. District Court, Western
σσ   California SNAP Recipients Convicted After                                District of Washington, two Seattle store owners were
     Fraudulently Applying for and Receiving Hurricane                         charged with wire fraud and SNAP trafficking. In late
     Katrina Disaster Relief Assistance. In February 2008,                     March 2012, in U.S. District Court, Western District of
     agents of the U.S. Department of Homeland Security                        Washington, the first store owner was sentenced to 18




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half            11
                                                                     Goal 2




      months in prison, followed by 36 months of supervised               in June 2012 to 12 months and 1 day of imprisonment. He
      release, and was ordered to pay restitution in the amount           was also ordered to pay $351,163 in restitution and ordered to
      of $200,000 (jointly and severally with the other subject)          forfeit $7,967 in cash.
      to USDA and $39,480 to the Washington State Liquor
      Control Board. Also in March 2012, the second store                 Daycare Provider Convicted of Defrauding Child and
      owner was sentenced to 24 months in prison, followed                Adult Care Feeding Program (CACFP)
      by 36 months’ supervised release, and was ordered to                In June 2009, a concerned citizen reported that for 6 years, a
      pay $700,000 in restitution. The OIG investigation
                                                                          Northern Michigan daycare provider participating in CACFP
      disclosed that the first store owner purchased SNAP
                                                                          had engaged in fraud by overstating the number of meals
      electronic benefits transfer (EBT) cards from recipients
      at approximately 60 percent of their face value and then
                                                                          served to children attending the center, and claiming meals
      redeemed the EBT cards onsite using point of sale terminals         for children no longer in attendance. During a periodic
      that belonged to the grocery store owned by the second              review conducted by Michigan Department of Education
      individual. The second store owner also purchased SNAP              personnel, the daycare owner admitted to over-reporting meals
      benefits directly from recipients at his own store. OIG is          served at the center, thereby inflating the center’s CACFP
      working with the Washington Department of Social and                reimbursement. Our investigation determined that, between
      Health Services to take action against SNAP recipients who          October 2007 and June 2009, the daycare owner submitted
      sold benefits to the stores. To date, the State has received        at least 18 false claims seeking reimbursement from CACFP,
      20 disqualification agreements from recipients, and has             thereby defrauding the program of approximately $35,000.
      administrative action pending in 31 other cases.                    In May 2012, the daycare owner pled guilty to fraud charges
σσ    Fugitive Store Owner Arrested in New York and                       in U.S. District Court, Western District of Michigan. In
      Extradited to California for SNAP Fraud. In June                    August 2012, the individual was sentenced to 6 months’
      2012, in the Superior Court of California, County of                home confinement, 36 months’ supervised release, 520 hours’
      Sacramento, the co-owners of a store in Sacramento pled
                                                                          community service, and $35,825 in restitution. The Michigan
      guilty to abusing SNAP. Both defendants were sentenced
                                                                          Department of Education has initiated action to remove the
      to 36 months’ imprisonment, followed by 24 months of
                                                                          daycare center from program participation.
      supervised release. The defendants each paid $20,000 in
      restitution and were ordered to pay a combined additional           Summer Food Service Program Vendor Sentenced for
      amount of $347,103 in restitution. In November 2009,                Billing False Meal Service Counts
      OIG was contacted by the Sacramento County Department
      of Human Assistance, Investigations Division, to assist             Our investigation of a Summer Food Service Program
      with the execution of a local county search warrant of the          participant in Dearborn, Michigan, determined that although
      store that was being investigated for SNAP trafficking.             breakfast and dinners were billed and reimbursed, not a single
      One owner was arrested and the other became a fugitive.             meal was ever served to needy children. We determined that,
      In December 2011, OIG agents arrested the fugitive in               from June 2009 through August 2009, the vendor purportedly
      Levittown, New York, and he was transported to the Nassau           served 7,062 meals at 5 community facilities and received
      County Police Department where he was extradited to                 $22,862 in reimbursement. Representatives of the community
      California.                                                         facilities advised that they had no interaction with the subject
Alabama Store Owner Sentenced to Prison for WIC                           and were never approached to use their facilities as part of the
Fraud                                                                     Summer Food Service Program. The subject pled guilty in
                                                                          Wayne County Circuit Court, Michigan, and was sentenced
A joint investigation with the Alabama Office of the Attorney
                                                                          to 6 months’ probation, 80 hours’ community service, and
General and the FBI disclosed that the owner of a small market
                                                                          $22,862 in restitution. This case was prosecuted by the
in Mobile, Alabama, fraudulently redeemed approximately
                                                                          Michigan Attorney General’s Office.
$350,000 worth of WIC vouchers from January 2007 to
December 2010. In December 2011, the store owner was                      Management Agent Sentenced for Embezzlement
charged in U.S. District Court, Southern District of Alabama,             Scheme
with WIC fraud. The owner pled guilty and was sentenced
                                                                          Our investigation determined that, from 2003 through 2009, a
                                                                          Northern Michigan property management company employee




12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                   Goal 2




embezzled approximately $124,000 from a bank account                    RECOVERY ACT REVIEWS
held by apartment complexes enrolled in RD’s Direct Rental
Housing Program. The employee issued 193 checks payable                 RHS Needs to Improve Controls Over the Community
to herself from the property management company’s checking              Facilities Direct Loan and Grant Program
account. In her attempts to conceal the embezzlement, the               Of the $28 billion in loans, loan guarantees, and grants the
employee destroyed copies of issued checks, withheld certain            Recovery Act provided to the RD mission area, Congress set
payments to vendors, and shifted funds between various                  aside $1.1 billion for direct loans and $61 million for grants
accounts. The RD Area Office referred the case to OIG for               as part of RHS’ Community Facilities Direct Loan and Grant
investigation. Most, if not all, of the funds were reimbursed to        Program. This program provides loans and grants designed
the projects through insurance reimbursements. In February              to build essential community facilities for public use in rural
2010, the employee confessed to the embezzlement scheme,                areas. Based on our review of a statistical sample of 81 loans
advising she used the stolen funds to pay personal and family           and grants totaling $18.3 million, we generally found that
debts, make mortgage payments, and purchase a substantial               program participants and project purposes met eligibility
number of lottery tickets. In March 2012, the individual                requirements and that RD’s internal controls were adequately
pled guilty to theft of Government funds in U.S. District               designed and operating as prescribed. However, we identified
Court, Eastern District of Michigan, and in July 2012, she              three instances where RHS could enhance its controls over
was sentenced to 12 months and 1 day of imprisonment, 24                these grants and loans. First, RHS approved both a loan and
months’ supervised release, and $123,807 in restitution.                a grant, totaling $13.1 million, to construct a multi-function
Rural Business-Cooperative Service (RBS)                                community center that featured a swimming pool, a use
                                                                        which was not in accordance with guidance provided by RHS.
Guaranteed Loan Conspiracy Results in Millions
                                                                        Second, RHS offices in two States disbursed two Recovery Act
in Restitution
                                                                        Community Facilities Program grants before the recipients had
As we reported in the SARC, First Half of FY 2012, an OIG               contributed the matching funds for their projects, as required
investigation found that multiple individuals participated in a         by the agency’s guidance. Third, RHS disbursed Recovery Act
scheme to inflate the value of live catfish inventory and other         funds to three recipients who did not have required insurance
property on a Mississippi catfish farm, so that a Mississippi           coverage at the time of loan closing. We recommended that
man could fraudulently obtain a $9.5 million RBS Business               the agency develop controls to prevent these types of problems
and Industry guaranteed loan for the purpose of purchasing              from recurring. RHS generally disagreed with our findings, but
the farm. The loan exceeded the true value of the property by           agreed to take measures to strengthen internal controls on all
several million dollars. The investigation also led to charges          recommendations. (Audit Report 04703-0002-Hy, Controls
against other conspirators, including the seller of the property,       over Eligibility Determinations for Rural Community Facilities
the buyer’s attorney, the appraiser, a business consultant, a           Program Direct Loan and Grant Recovery Act Activities—
farm manager, and a former RD official. On June 21, 2012,               Phase 2)
in U.S. District Court, Northern District of Mississippi, the
corporation involved was sentenced to 12 months’ probation              The Rural Utilities Service (RUS) Needs to Ensure
and ordered to pay $4.25 million in restitution. The owner of           It Follows the Recovery Act’s Transparency and
the corporation tendered a $4.25 million certified check to the         Accountability Requirements
U.S. District Court Clerk’s Office to pay the ordered restitution       In order to improve the quality of life for rural residents while
in full. On June 28, 2012, in U.S. District Court, Northern             creating and saving jobs in rural communities, Congress
District of Mississippi, the son of the owner of the farm was           designated $3.8 billion in Recovery Act funds for the Water
sentenced to 60 months’ probation and ordered to pay $5.9               and Waste Disposal System Loan and Grants Program in
million in restitution jointly with other defendants. The buyer’s       rural areas. Our review of a sample of 22 projects totaling
attorney is awaiting sentencing.                                        $189 million in obligations found that RUS had effective
                                                                        controls in place to ensure the program provided loans and




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half          13
                                                                   Goal 2




grants to eligible participants, that the participants complied         RD Needs to Ensure That Grants Made Under the
with requirements, and that the program funded infrastructure           Rural Business Enterprise Grant (RBEG) Program Are
projects likely to contribute to economic growth in the future.         Properly Documented
However, the Recovery Act’s stated goal of job preservation and
                                                                        Under RBEG, RD helps fund projects that facilitate the
creation was not yet fully met over 30 months after the Act
                                                                        development of small and emerging rural businesses, a
was passed, as we found that projects expected to create or save
                                                                        program that received an additional $20 million in Recovery
3,384 jobs experienced long periods between the obligation of
                                                                        Act funding. OIG found that, for 49 percent of these RBEG
funds and the start of construction, when most job creation
                                                                        grants, the files were missing documentation needed to support
occurs. The associated project recipients reported a total of
                                                                        the applicant’s eligibility. These unsupported rankings were
only 415 actual jobs created or saved as of September 11, 2011.
                                                                        then used by the national office, in part, to determine which
To improve transparency through disclosure of project timing,
                                                                        applicants would receive RBEG program funding. We also
we recommended that RUS report on Recovery.gov the time
                                                                        found that State and area offices did not take sufficient steps
needed to initiate construction of water and waste projects.
                                                                        to obtain applicants’ financial or performance reports. We
The agency agreed with our recommendations and has posted
                                                                        determined that 47 percent of applicants had not submitted all
additional information regarding construction timing on
                                                                        of their quarterly performance reviews and financial reports,
Recovery.gov as well as the RD Recovery Act Webpage. (Audit
                                                                        even though these reports were required each quarter after the
Report 09703-0001-AT, Rural Utilities Service’s Controls Over
                                                                        grants were obligated. To resolve these issues, we recommended
Water and Waste Disposal Loan and Grant Program for the
                                                                        that RBS ensure that points assessed on the score sheet are
Recovery Act).
                                                                        supported by the required documentation and that the
NRCS Needs to Improve Its Implementation of                             national office ensure that all personnel in charge of overseeing
the Watershed Protection and Flood Prevention                           RBEG program projects complete a formal, comprehensive
Operations Program                                                      training program that addresses reporting requirements and
The Recovery Act provided NRCS $145 million for its                     enforcement actions available to encourage compliance. RBS
Watershed Protection and Flood Prevention Operations                    agreed with our recommendations. (Audit Report 34703-
Program. Based on a statistically selected sample of 21 projects,       0002-KC, Rural Development—Rural Business-Cooperative
we determined that the projects provided benefits to local              Services—Rural Business Enterprise Grants Recovery Act
residents, businesses, and farms and that NRCS was adequately           Controls)
monitoring the progress of the projects reviewed. We noted,             FNS Needs to Ensure It Mitigates Known Weaknesses
however that NRCS did not include necessary Recovery Act                in SNAP and Reports Fund Use Appropriately
award terms in approximately two-thirds of award agreements
                                                                        To strengthen food assistance during the economic recession,
because it did not issue formal guidance regarding required
                                                                        the Recovery Act provided additional funding for SNAP
Recovery Act provisions for award agreements. Without
                                                                        benefits—approximately $12 billion of the $71.8 billion spent
specific guidance, contracting officers in some NRCS State
                                                                        in FY 2011—to provide benefits to approximately 44.7 million
offices overlooked the information and did not include all
                                                                        participants. We evaluated FNS’ and State agencies’ initial
required provisions. Our review also found one instance in
                                                                        planning to implement the Recovery Act’s provisions for
which NRCS did not require the local sponsors to pay their
                                                                        SNAP and determined whether FNS’ internal controls ensured
agreed-upon share of project costs, totaling nearly $1.3 million.
                                                                        that States provided Recovery Act SNAP benefits timely and
NRCS agreed with our recommendations to correct these
                                                                        effectively to eligible participants. Overall, we concluded
issues. (Audit Report 10703-0004-KC, American Recovery
                                                                        that FNS took timely actions to implement the Recovery Act
and Reinvestment Act—Watershed Protection and Flood
                                                                        provisions for SNAP. However, we found that FNS did not
Prevention Operations Program—Field Confirmations)
                                                                        mitigate known program access weaknesses, specifically long
                                                                        waits for application processing; inappropriate decisions on the
                                                                        denial, suspension, or termination of benefits; and issues with




14     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                  Goal 2




some States’ development of online application systems. We             with information in the loan files. We recommended that RD
also found that States did not always appropriately disclose           ensure that it consistently updates its handbook, effectively
the use of Recovery Act funds for SNAP, and we alerted FNS             publicizes the updates, and maintains ongoing training for field
that it needed to timely report significant Recovery Act budget        staff. Agency officials agreed. (Audit Report 04703-0003-KC,
changes on public Websites. We recommended that FNS                    Single-Family Housing Direct Loans Recovery Act Controls—
develop a comprehensive risk assessment of SNAP’s existing             Compliance Review)
program weaknesses, update public Websites, and ensure that
                                                                       Two Idaho Construction Companies Act as Shell
Recovery Act SNAP benefits reports are compliant. FNS
                                                                       Companies and File False Statements to Receive
generally agreed with our recommendations. (Audit Report
27703-0002-At, Recovery Act Impacts on the Supplemental
                                                                       Recovery Act Money
Nutrition Assistance Program)                                          In June and July 2012, two Idaho construction company
                                                                       owners were sentenced in U.S. District Court, District of
RD Needs to Improve Guidance and Training on                           Idaho, for their role in the submission of false statements
Single-Family Housing Direct Loan Eligibility                          to the Agricultural Research Service (ARS), the Small
RD received over $1.56 billion in Recovery Act funds to                Business Administration (SBA), and the U.S. Department
provide single-family housing direct loans to borrowers for            of the Interior. The companies claimed to be Historically
FYs 2009 and 2010. Based on a sample of Recovery Act                   Underutilized Business Zone (HUBZone) small business
direct loans, OIG determined that RD field personnel did not           firms so that they could obtain special contracts. The owner
always comply with internal control procedures to ensure that          of one of the Idaho construction companies was sentenced in
homes and program participants met eligibility guidelines.             June 2012 to 36 months of probation, during which time the
We questioned whether all borrowers had a history of stable            company can conduct no business activities, and was ordered
and dependable income, adequate credit history or adequate             to pay a $65,000 fine for her role in the submission of false
ability to meet repayment guidelines, and whether all properties       statements and certifications to ARS and SBA. In March 2012,
met eligibility guidelines. Given issues with the loans in our         she was charged with one count of wire fraud and one count of
statistical sample, we projected that loans worth $208 million         making false statements in connection with a total estimated
(22 percent) may have issues similar to those we identified.           fraud amount on four different contracts totaling $1.4 million.
These issues occurred because field-level personnel were not           She pled guilty to one count of wire fraud and one count
sufficiently trained on how to either conduct or adequately            of making false statements, and admitted she made a false
document proper determinations, did not have an effective              certification to ARS and SBA. In July 2012, the second Idaho
second-party review process in place to catch errors, and did          construction company owner was sentenced to 36 months
not have sufficient guidance on property eligibility. We also          of probation and ordered to pay a $5,000 fine for his role in
tested RD’s automated IT system and found that, in some                falsely claiming to be a HUBZone small business entity.
critical fields, over 10 percent of the entries did not match




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half       15
                                                                   Goal 2




 GOVERNMENTWIDE ACTIVITIES                                                       and Western Districts of Michigan and the Michigan
                                                                                 Attorney General’s Office are pursuing multiple
 Review of Legislation, Regulations, Directives,                                 criminal prosecutions, with cases so far resulting in
 and Memoranda                                                                   109 guilty pleas. Sentences have included lengthy
                                                                                 incarceration periods and $23.5 million in court-
 σσ    Office of Management and Budget: Draft Proposed
                                                                                 ordered fines and restitution. The U.S. Attorney’s
       Uniform Guidance for Grants and Cooperative
                                                                                 Office has initiated forfeitures totaling over $4.1
       Agreements. OIG reviewed and commented on the
                                                                                 million.
       draft proposed guidance for grants and cooperative
       agreements. The proposed guidance would                              σσ   Ohio Organized Crime Investigations Commission Task
       exempt entities that expend under $1 million from                         Force. An OIG investigator is participating on the
       comprehensive single audit coverage. OIG commented                        Ohio Organized Crime Investigations Commission
       that such a threshold would: (1) impact our ability to                    Task Force in Dayton. The task force provides
       use single audits to identify program vulnerabilities and                 assistance to local law enforcement agencies in the
       areas of potential audit coverage; and (2) negatively                     investigation of organized criminal activity. OIG
       affect assurance that relevant Federal awards are                         investigators have participated on the task force since
       expended in accordance with program requirements.                         1996 and have conducted investigations involving
                                                                                 welfare recipients, food stamp trafficking, mortgaged
                                                                                 farm equipment stolen from farmers, stolen property
 Participation on Committees, Working Groups,                                    trafficking, illegal drugs, and dog fighting.
 and Task Forces                                                            σσ   Suspicious Activity Reports Review Teams. OIG agents
 σσ    Operation Talon. OIG began Operation Talon in 1997                        in Alabama, Iowa, Kentucky, Maine, Massachusetts,
       to catch fugitives, many of them violent offenders,                       Michigan, Minnesota, Mississippi, New Hampshire,
       who are current or former SNAP recipients. Since its                      North Carolina, North Dakota, Oregon, South
       inception, Operation Talon has led to the arrests of                      Carolina, South Dakota, and Washington State
       thousands of fugitive felons. During the second half of                   participate on suspicious activity review teams, which
       FY 2012, Talon operations were conducted in 5 States,                     are coordinated by the U.S. Department of Justice
       resulting in more than 200 arrests. OIG combined                          through the U.S. Attorney’s Offices. These review
       forces with Federal, State, and local law enforcement                     teams systematically review all reports of suspicious
       agencies to arrest fugitives for such offenses as arson,                  activity that affect a specific geographic jurisdiction,
       assault, blackmail, robbery, sex offenses, weapons                        identify individuals who may be engaged in criminal
       violations, drug charges, and offenses against family                     activities, and coordinate and disseminate leads to
       and children.                                                             appropriate agencies for followup. These teams
 σσ    Bridge Card Enforcement Team. OIG investigators                           generally include representatives from law enforcement
       work with this team to investigate criminal SNAP and                      and various regulatory agencies, with the U.S.
       WIC violations. Team members include the Michigan                         Attorney’s Office and IRS Criminal Investigations
       State Police and IRS investigators. During this                           typically in lead roles. OIG focuses specifically on
       reporting period, we have also worked with the Lansing                    reports of suspected criminal activities by business
       Police Department’s Special Operations Division                           entities and individuals involved in USDA programs,
       and the Kent County Sheriff’s Department, Grand                           including SNAP and WIC violations, stolen infant
       Rapids, Michigan. The FBI and U.S. Immigration and                        formula, and farm-related cases. Coordination
       Customs Enforcement personnel also helped during                          among the respective agencies results in improved
       search warrant operations. Since 2007, our teamwork                       communication and more efficient resource allocation.
       has resulted in 128 arrests and 203 search warrants                  σσ   Mortgage Fraud Task Forces. OIG investigators
       served. The U.S. Attorney’s Office for the Eastern                        participate in mortgage fraud task forces in California,




16    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                 Goal 2




     Michigan, Minnesota, New Hampshire, and North                             citizen disclosure of public corruption, fraud, and
     Carolina, in addition to a national mortgage fraud                        embezzlement in Federal programs, contracts, and
     working group that meets monthly in Washington,                           grants; and investigate, prove, and prosecute crimes
     D.C. These task forces identify trends, share                             against Montana’s Native American communities.
     information, and coordinate investigations related                   σσ   Western Regional Inspectors General Councils and
     to mortgage fraud. They are working to improve                            Intelligence Working Groups. OIG investigators work
     efforts across the Federal executive branch and, with                     with various councils and groups to develop Recovery
     State and local partners, investigate and prosecute                       Act training, share information, discuss ongoing and
     significant mortgage crimes, combat discrimination in                     potential work of mutual interest, and strengthen
     the lending and financial markets, and recover proceeds                   working relationships. In addition, Western Region
     for victims of financial crimes. The task forces are                      OIG investigators organize and participate in meetings
     headed by representatives from U.S. Attorney’s Offices                    to enhance coordination among Federal, State,
     and the FBI. They are strategically placed in locations                   and local law enforcement agencies in the Pacific
     identified as high-threat areas for mortgage fraud.                       Northwest. Inspectors General councils meeting
     They include participants from Federal program                            in other regions of the country also include OIG
     agencies and regulatory agencies including the U.S.                       representatives.
     Department of Housing and Urban Development, the
                                                                          σσ   OIG agents participated in other task forces and
     IRS, the Social Security Administration, local district
                                                                               working groups related to benefits fraud, including:
     attorney’s offices, and police departments.
                                                                               •	 Northern California Financial Fraud Investigators
σσ   Organized Retail Theft Task Forces. As a member of the
                                                                                  Association,
     Retail Merchants Association of North Carolina Retail
     Theft Initiative, OIG agents coordinate, plan, and                        •	 Disaster Fraud Working Group in the Northern
     meet regularly with various retail merchants in North                        District of Alabama,
     Carolina to discuss a proactive investigative strategy                    •	 Social Services/Welfare Fraud Working Groups in
     to develop cases involving retail theft. This working                        Oregon and Washington State,
     group coordinates investigations of convenience stores
                                                                               •	 SNAP fraud joint investigative groups in Arizona
     and retail outlets that may be involved in the theft
                                                                                  and California, including a Secret Service High Tech
     and resale of infant formula, electronics, and other
                                                                                  Crimes Task Force, and
     retail items. As members of the Bay Area Organized
     Retail Crime Association, OIG agents work with San                        •	 Somali Working Group in Southern California.
     Francisco Bay Area law enforcement agencies and                      σσ   Small Business Innovative Research (SBIR) Working
     organized retail crime investigators from major retailers                 Group. OIG investigators and auditors participated
     to identify and coordinate action against organized                       in an SBIR Working Group hosted by the National
     retail theft rings, as well as to identify retail items                   Science Foundation Office of Inspector General.
     susceptible to theft by such organized groups.                            The SBIR Working Group is focused on addressing
σσ   The Guardians. USDA OIG is a member of this                               Congress’ concerns about the persistence of fraud in
     task force in Montana consisting of other OIGs and                        the SBIR program. Topics include IG annual reporting
     the FBI, which was convened by the U.S. Attorney’s                        requirements on its work in the SBIR program area
     Office to coordinate and synchronize law enforcement                      under the FY 2012 National Defense Authorization
     efforts among various Departments that have a                             Act. To address the new reporting requirements for
     significant financial commitment in Native American                       IGs, we are working with the Department’s SBIR
     communities in Montana. The participating agencies                        program staff.
     join forces; share assets and responsibilities; promote




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half              17
                                                              Goal 2




 ONGOING REVIEWS FOR GOAL 2                                            ONGOING REVIEWS FOR GOAL 2
 σσ    reduction of inconsistent yields (RMA),                         UNDER RECOVERY ACT FUNDS
 σσ    oversight of organic crop insurance (RMA),                      σσ   Floodplain Easements and Watershed Operations
                                                                            Programs—effectiveness review (NRCS),
 σσ    controls over prevented planting (RMA),
                                                                       σσ   Emergency Watershed Protection Program floodplain
 σσ    vendor management and participant eligibility in WIC
                                                                            easements—field confirmations (NRCS),
       (FNS),
                                                                       σσ   Recovery Act impacts on SNAP—Phase 2 (FNS),
 σσ    controls for authorizing SNAP retailers (FNS),
                                                                       σσ   Business and Industry Guaranteed Loan Program
 σσ    procurement controls (RD),
                                                                            (RBS),
 σσ    controls over the grant management process (OAO),
                                                                       σσ   Trade Adjustment Assistance for Farmers Program
 σσ    USDA Strikeforce Initiative (OAO),                                   (FSA, Foreign Agricultural Service (FAS), National
 σσ    National School Lunch and Breakfast Programs (FNS),                  Institute of Food and Agriculture (NIFA)),
       and                                                             σσ   Recovery Act Single-Family Housing Direct and
 σσ    National School Lunch Program, food service                          Guaranteed Loans—effectiveness review (RHS), and
       management companies (FNS).                                     σσ   controls over Recovery Act water and waste loans and
                                                                            grants expenditures and effectiveness review (RUS).




18    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                     Goal 3




Management Improvement Initiatives
OIG Strategic Goal 3:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                          GOAL 3
Support USDA in implementing its management
improvement initiatives                                                   FSA Should Improve Reviews of Manually Calculated
                                                                          Payments
In recent years, the complexity of USDA’s programs and the
                                                                          As part of OIG’s audit of USDA’s FY 2010 and 2011
demand for them has increased, even as the Department has
                                                                          consolidated financial statements, OIG reviewed a statistical
seen a decrease in its staffing. In response, USDA has sought
                                                                          sample of 122 payments totaling $5.2 million that FSA made
to identify areas and activities that offer the potential for
                                                                          in FY 2011. We identified errors in 14 of the payments and
greater efficiency and to streamline its administrative service,
                                                                          determined the resulting $54,000 in improper payments
IT, finance, human resources, procurement, and property
                                                                          occurred because FSA’s controls over the manual payment
management functions. As part of this effort, OIG conducts
                                                                          calculation process used for the Supplemental Revenue
audits and investigations that are intended to help USDA
                                                                          Assistance Payments Program were not effective. We estimate
improve how it manages its assets.
                                                                          that FSA made improper payments totaling about $28 million,
In the second half of FY 2012, we devoted 38 percent of                   a figure lower than in FY 2010. We recommended that FSA
our total direct resources to Goal 3, with 99 percent of these            further strengthen controls to review data for input errors. FSA
resources assigned to critical/high-impact work. A total of 99            agreed to take corrective action to address the recommendation.
percent of our audit recommendations under Goal 3 resulted                (Audit Report 03401-0001-11, Farm Service Agency Fiscal Year
in management decision within 1 year, and 94 percent of our               2011 Farm Assistance Program Payments)
investigative cases resulted in criminal, civil, or administrative
action. OIG issued 14 audit reports under Goal 3 during this              NRCS Needs to Improve Its Guidance and
reporting period. OIG’s investigations under Goal 3 yielded 8             Methodology for Reporting Improper Payments
indictments, 11 convictions, and $800,000 in monetary results             NRCS must estimate and report its improper payments under
during this reporting period.                                             the Improper Payments Elimination and Recovery Act of
                                                                          2010 (IPERA), as well as report high-dollar overpayments
                                                                          associated with these programs under an executive order.
  Management Challenges Addressed Under Goal 3                            OIG looked closely at 17 payments that NRCS had already
                                                                          reviewed and concluded were correct. We found that 11 of
  σσ    Interagency Communication, Coordination, and
                                                                          the 17 payments did not have sufficient documentation to
        Program Integration Need Improvement (also under
                                                                          support the determination that the participant was eligible.
        Goal 2)
                                                                          For 7 of the 11 cases, NRCS did not review eligibility at
  σσ    Strong, Integrated Internal Control Systems Still
                                                                          all; for the other 4 cases where NRCS did review eligibility,
        Needed (also under Goals 1, 2, and 4)
                                                                          the agency did not review adequate documents to support
  σσ    Information Technology Security Needs Continuing                  its determination. Apart from developing a general IPERA
        Improvement
                                                                          review form, NRCS had not developed formal guidance for
  σσ    Efforts to Identify, Report, and Reduce Improper                  the IPERA review process and forms that reflect programs’
        Payments Need to Be Strengthened (also under Goal 2)              unique document requirements. We questioned the accuracy
                                                                          of NRCS’ FY 2011 improper payment estimate of $11 million,
                                                                          and believe that it is understated by at least $9 million. We
                                                                          also found that, because NRCS used multiple manual methods
                                                                          to track improper payments and high-dollar overpayments,
                                                                          NRCS’ national office could not effectively monitor improper
                                                                          payments to ensure accurate reporting and tracking. We
                                                                          recommended that NRCS correct these issues and NRCS




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half       19
                                                             Goal 3




agreed. (Audit Report 10024-0001-11, Natural Resources            OCIO Needs to Improve Efforts to Strategically Plan,
Conservation Service Fiscal Year 2011 Improper Payment            Prioritize, and Manage Security Enhancements
Review)
                                                                  To enhance the security of USDA’s IT posture, Congress
NRCS Should Ensure That Controls Over the Migratory               increased OCIO’s baseline appropriations by a total of
Bird Habitat Initiative Are Effective                             $66 million for FYs 2010 and 2011. Through assessment of
In response to the April 2010 oil spill in the Gulf of Mexico,    OCIO’s use of funds for 16 projects, we found that, although
NRCS created the Migratory Bird Habitat Initiative. To            OCIO has made progress in addressing USDA’s security
create or enhance habitats and food sources for birds             concerns, OCIO’s efforts should have been strategically
migrating to and through 470,000 acres of land in the affected    planned, prioritized, and managed in order to be more
region, NRCS entered conservation program contracts               effective. Several of OCIO’s projects did not meet the purposes
with landowners to provide approximately $38.6 million to         outlined in the Congressional request for funding or address
implement conservation practices. OIG found, however,             the Department’s most critical IT security concerns. Some
that NRCS did not have controls in place to maximize these        projects were not completely implemented, while others were
conservation efforts—some landowners received more in             not sufficiently coordinated, including projects with duplicate
combined Federal and non-Federal payments than the average        objectives. To address these challenges, OIG recommended
cost of implementing the conservation practices. If NRCS          that OCIO document how it prioritizes projects Department-
prevented such duplication, the agency would have been            wide, develop detailed internal control procedures for project
able to apply more than $900,000 in program funds more            management, and strengthen communication and coordination
widely and conserve an estimated 14,000 additional acres.         among OCIO management, project managers, account
We recommended that NRCS implement controls to better             managers, and contractors. OCIO concurred with the report’s
leverage limited resources and provide greater impact with        recommendations. (Audit Report 88401-0001-12, Office of
future program funding. Although NRCS did concur with             the Chief Information Officer: FYs 2010 and 2011 Funding
four other recommendations related to program payments, it        Received for Security Enhancements)
did not agree on this issue. OIG and NRCS continue to work        FAS Should Implement Monitoring and Oversight
to reach agreement on all recommendations. (Audit Report          Controls Over U.S. Agency for International
10704-0001-32, Migratory Bird Habitat Initiative: NRCS’           Development (USAID) Funds Transferred to Pakistan
Response to Issues Caused by the Deepwater Horizon Oil Spill)
                                                                  In support of the U.S. Government’s objective of helping the
OCIO Must Adequately Protect Traffic on Its                       Pakistani people overcome political, economic, and security
Telecommunications Network                                        challenges, USDA is working with the Government of Pakistan
OCIO coordinates information technology within the                to increase agricultural productivity, improve its capacity to
Department. Like other organizations, USDA and its agencies       provide agricultural services, and improve rural livelihoods.
rely on Domain Name System (DNS) servers to route Internet        In 2010 and 2011, USAID transferred a total of $39 million
traffic through the telecommunications network. DNS is a          to USDA’s FAS to build Pakistan’s capacity for better
data communication mechanism that translates numerical            marketing and productivity in the agricultural sector. To assess
addresses into easy-to-understand Website names, but it is        USDA agencies’ controls to monitor and provide oversight
susceptible to various security vulnerabilities. We evaluated     over USAID-transferred funds, we reviewed three priority
the Department’s management and security controls over            projects that received $25 million. We determined that the
DNS and determined that USDA’s security over DNS did not          $10.9 million spent by May 2012 was used properly; however,
meet all required standards. OCIO generally agreed with our       because the sampled projects were just being implemented at
recommendations and is taking action to correct the issues.       the time of our review, we were unable to verify whether total
(Audit Report 50501-0001-12, Office of the Chief Information      obligations accorded with agreements. We noted that USDA
Officer: USDA’s Configuration, Management, and Security           is taking steps to establish controls to monitor and provide
over Domain Name System Servers)                                  oversight over capacity-building projects in Pakistan, but has
                                                                  not yet implemented the relevant processes and procedures.




20     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                               Goal 3




As FAS is working to develop and implement them, we are              financial systems hosted by OCIO/NITC, are material to the
currently unable to fully assess the adequacy of monitoring          financial statements; therefore, controls over those systems
and oversight controls. Accordingly, we did not make any             play an integral part in assessing the completeness, accuracy,
recommendations to the agency, and we will continue to               and integrity of USDA financial data. Through our review
monitor FAS’ implementation of these processes during the            of selected controls over the EmpowHR application, we
next phase of our audit. (Audit Report 50601-0001-16,                found that OCIO/NITC had not developed formal written
Section 632(a) Transfer of Funds for Pakistan from USAID to          policy and procedures for incident response; did not create,
USDA)                                                                track, and mitigate critical vulnerabilities identified during
                                                                     monthly scans; and did not adequately protect its computers
USDA Improved Its Quarterly High-Dollar Reporting,
                                                                     from water damage at an alternate processing site. We
but Further Actions Are Needed
                                                                     recommended that OCIO/NITC develop and implement
To intensify efforts to eliminate payment error, waste, fraud,       formal documented incident response policy and procedures to
and abuse in Federal programs, Federal agencies must submit          address these issues. OCIO/NITC concurred with the finding
quarterly reports on any high-dollar overpayments identified in      and recommendations included in the report. (Audit Report
their high-risk programs, including information about agency         88401-0001-11, Review of Selected Controls at the National
actions and strategies to recover and prevent the overpayments.      Information Technology Center)
Overall, in FY 2011, USDA reported overpayments totaling
approximately $11.7 million. Through our second annual
                                                                     OCFO/NFC Controls Were Suitably Designed and
review of USDA’s compliance with this requirement, we found          Operating Effectively
that USDA made significant improvements in identifying and           Based on the criteria described in OCFO/NFC assertions, we
reporting high-dollar overpayments within its 16 high-risk           found the agency’s descriptions of controls fairly present the
programs. However, we noted that the component agencies’             systems that OCFO/NFC implemented. Also, the controls
submissions to the Department did not always completely and          related to the control objectives stated in the descriptions
accurately account for high-dollar overpayments and corrective       were suitably designed and operating effectively to provide
actions and that the Department did not submit these reports         reasonable assurance that the control objectives would be
until 23 to 99 days after the required due date. Although            achieved. (Audit Report 11401-0004-11, Statement on
component agencies and the Department have implemented               Standard for Attestation Engagements No. 16, Report on
some corrective actions, continued actions are needed to further     Controls at the National Finance Center)
improve the Department’s compliance. We recommended
                                                                     NFC Generally Reported Employee Benefits,
that the Office of the Chief Financial Officer (OCFO)
                                                                     Withholdings, and Contributions Correctly to the
provide additional oversight to ensure component agencies
appropriately consider cumulative payments and use a uniform
                                                                     Office of Personnel Management (OPM)
process for identifying reportable high-dollar overpayments.         As required annually by the Office of Management and Budget
OCFO agreed with the findings and recommendations. (Audit            (OMB), we assisted OPM in assessing the reasonableness
Report 50024-0002-11, Executive Order 13520, Reducing                of retirement, health, and life insurance withholdings and
Improper Payments, Fiscal Year 2011 High-Dollar Report               employee data submitted by OCFO and NFC. We found
Review)                                                              no differences that exceeded the allowable OPM thresholds.
                                                                     However, when verifying Combined Federal Campaign
OCIO’s National Information Technology Center (NITC)                 deductions made by the payroll providers, we identified
Needs to Implement Additional Controls                               differences where the deductions were sent to different
OCIO/NITC provides information technology solutions to               campaign areas than those designated by OPM. OCFO/
achieve effective mission performance and program delivery           NFC noted the low error rate overall when considered on
to customers internal and external to USDA, including                a percentage basis and attributed most of the differences to
OCFO’s National Finance Center (NFC). Financial data                 human error by personnel at various agencies. (Audit Report
processed by NFC, along with additional agency-specific              11401-0003-11, Agreed-Upon Procedures: Retirement, Health




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half       21
                                                                  Goal 3




Benefits, and Life Insurance Withholdings/Contributions and            by issuing Government Purchase Card Program convenience
Supplemental Semiannual Headcount Report Submitted to                  checks to individuals not authorized to receive them. An OIG
OPM)                                                                   investigation revealed that she issued at least 129 convenience
                                                                       checks, totaling $272,750, to herself and other individuals.
FSA Employee and Spouse Devise Schemes to
                                                                       In May 2010, in U.S. District Court, Eastern District of
Fraudulently Receive Nursery Disaster Program
                                                                       California, the administrative support assistant was charged
Payments                                                               with 12 counts of conspiracy to defraud the Government.
In May 2012, a Federal grand jury returned an 11-count                 In addition, 13 other defendants were charged, including
indictment charging a former FSA county committee member               another FS employee who received approximately $20,000 in
and her husband with conspiracy to defraud USDA. The                   unauthorized convenience checks. In April 2012, the employee
couple stole the identities of unsuspecting parties and                who issued the checks was sentenced to 26 months in Federal
submitted false and fraudulent claims. During the course               prison and 36 months of supervised release. She was also
of their scheme, they caused FSA to make approximately $1              ordered to pay restitution of $272,750 jointly and severally
million in fraudulent payments. The couple used the majority           with other co-defendants. In August 2012, the employee who
of the funds to purchase property in Costa Rica. Also in May           received the checks was sentenced to 15 months in Federal
2012, both individuals pled guilty to the entire indictment            prison, followed by 36 months of supervised release, and was
in U.S. District Court, Southern District of Florida. In               ordered to pay $19,150 in restitution.
August 2012, the former FSA county committee member was
sentenced to 52 months in prison. Her husband was sentenced
                                                                       FS Employee in Arizona Pleads Guilty to Theft of
to 57 months in prison. Both sentences will be followed by
                                                                       Recreation Funds
36 months of supervised release. In addition, the husband              In April 2012, an FS employee pled guilty to theft of
and wife were jointly and severally ordered to pay $802,490 in         Government property and was sentenced to 60 months’
restitution.                                                           supervised probation and ordered to pay $5,104 in restitution.
                                                                       An OIG investigation revealed that the FS employee embezzled
Former Montana FSA CED Sentenced to 27 Months’
                                                                       recreation fees and misused his Government-issued credit card
Incarceration After Pleading Guilty to Bank Fraud                      while working in the Coronado National Forest. The employee
In August 2012, a former CED was sentenced in U.S. District            was responsible for depositing recreation fees collected from all
Court, District of Montana, to 27 months’ incarceration,               the campgrounds within the district where he worked. Agents
ordered to pay $948,555 in restitution ($403,295 to FSA and            discovered that the employee would remove the cash and keep
$545,260 to a bank), and given 36 months of probation. In              it for his own personal use. The employee took approximately
January 2010, a referral from the Montana State FSA office             $5,100 in cash. Agents also learned that the employee
alleged that the CED and her husband had converted cattle and          charged $2,887 to his Government-issued credit card, without
provided false information. The investigation confirmed these          authorization, for his personal use. He used the cash to gamble
facts and revealed that the FSA employee had also submitted            and the Government credit card to stay in hotels or rent cars.
a false travel voucher. In January 2012, both defendants were
indicted on 23 counts, including conspiracy to commit bank
fraud and bank fraud. The employee pled guilty in February
                                                                       RECOVERY ACT REVIEWS
2012. The employee had been indicted on the false travel               FNS Should Improve Guidance and Oversight of
voucher; however, in August 2012, based on her plea, those             the Emergency Food Assistance Program (TEFAP)
charges were dismissed. The employee resigned from her                 Activities
position. Her husband is awaiting sentencing.
                                                                       FNS operates TEFAP, which supplements the diets of low-
Two FS Employees Sentenced for Conspiracy to                           income Americans by providing emergency food and nutrition
Defraud the Government                                                 assistance at no cost.  In FYs 2009 and 2010, TEFAP received
In October 2007, FS notified OIG that an administrative                approximately $600 million in general appropriations and
support assistant allegedly misused her purchase card authority        $178 million in additional Recovery Act funds to purchase




22     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                     Goal 3




commodities and administer the program.  Based on reviews of              ARS Should Ensure That Recovery Act Funds Are Used
FNS’ use of funds and FNS’ State-level oversight in nine States,          Appropriately
we concluded that FNS and States should take additional steps
                                                                          ARS applied a portion of the $176 million allocated by the
to strengthen their guidance and oversight of Recovery Act
                                                                          Recovery Act for critical deferred maintenance projects by
reporting, food inventories, and financial compliance activities. 
                                                                          contracting with a private firm to renovate a wing of the
We determined that eight States did not monitor expenses
                                                                          National Center for Agricultural Utilization Research, located
appropriately; five States lacked adequate controls to ensure
                                                                          in Peoria, Illinois. To assist in ensuring that procurement
the prevention of damage, spoilage, or loss of food at TEFAP
                                                                          activities for critical deferred maintenance projects are
storage facilities; and three States inaccurately reported the
                                                                          compliant, OIG contracted with Regis & Associates, PC,
number of jobs TEFAP created and retained with Recovery Act
                                                                          to conduct a review. During the review, the auditors noted
funds.  We recommended that FNS develop its management
                                                                          that ARS’ Facilities Division did not always use Recovery Act
evaluation process and ensure the accuracy of reporting, and
                                                                          funds only for Recovery Act items, and did not always include
develop guidance for States regarding a risk-based review
                                                                          adequate language in contract modifications. ARS agreed
process.  FNS agreed with our nine recommendations and is
                                                                          to take the necessary measures to ensure that Recovery Act
taking corrective action.  (Audit Report 27703-0003-At, Food
                                                                          funds are used for Recovery Act items and to correct the
and Nutrition Service—Review of the Food and Nutrition
                                                                          modifications by adding the appropriate language. (Audit
Service’s Controls Over the Emergency Food Assistance
                                                                          Report 02703-0007-HQ, Agricultural Research Service
Program—Phase 2)
                                                                          Procurement Oversight Audit of National Center for
ARS Needs to Improve Oversight of Recovery Act                            Agricultural Utilization Research Contract)
Construction Contracts
                                                                          ARS Needs to Disclose Adequate and Timely
The Recovery Act provided ARS with $176 million to                        Information About Project Contracts
reduce the backlog of critical deferred maintenance projects
                                                                          With the $176 million the Recovery Act provided to ARS to
at facilities. To repair the facilities at laboratory buildings
                                                                          reduce a backlog of critical deferred maintenance projects at
at the Invasive Plant Research Laboratory, located in Fort
                                                                          facilities, ARS awarded a contract to a private firm to make
Lauderdale, Florida, ARS awarded a construction contract for
                                                                          updates at the Red River Valley Agricultural Research Center
$446,340 to a private firm. To ensure that the transparency
                                                                          located in Fargo, North Dakota. OIG contracted with Regis
and accountability requirements of the Recovery Act are met
                                                                          & Associates, PC, to assist in ensuring that ARS’ Recovery Act
and activities are performed in accordance with regulations,
                                                                          procurement activities for maintenance projects are performed
guidance, and Recovery Act requirements, OIG contracted
                                                                          in accordance with regulations and guidance. Based on a
with Regis & Associates, PC, to assist in reviewing ARS’
                                                                          review of the Recovery Act contracting activities, the auditors
Recovery Act procurement activities. We determined that
                                                                          found that an ARS contracting officer did not complete all
the contracting officer’s representative did not fully comply
                                                                          required statements in a timely manner and that ARS did not
with policies and procedures relating to conflict of interest
                                                                          adequately review information reported by the contractor on
disclosure and found weaknesses in the invoice approval and
                                                                          Recovery.gov. ARS agreed to take the necessary measures to
payment processes. In addition, although ARS developed
                                                                          inform procurement personnel to complete the Conflict of
new Recovery Act recipient reporting procedures, we found
                                                                          Interest and Financial Disclosure statements within the required
an instance of inaccurate recipient reporting and failure to
                                                                          timeframe and to ensure contractor reporting is sufficiently
report contractor information on Recovery.gov. To address our
                                                                          reviewed and accurately reported. The auditors also noted that
recommendations, ARS is currently drafting a new standard
                                                                          ARS did not request a legal review of the solicitation. As this
operating procedure for processing invoices and has sent out
                                                                          issue was previously reported to ARS, OIG made no additional
a reminder to personnel of their responsibility to maintain
                                                                          recommendations. (Audit Report 02703-0002-10, Agricultural
adequate and effective contract oversight when transitioning
                                                                          Research Service Procurement Oversight Audit of Red River
work. (Audit Report 02703-0001-10, Procurement Oversight
                                                                          Valley Agricultural Research Center Contract)
Audit of the Invasive Plant Research Laboratory Contract)




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half       23
                                                                 Goal 3




 GOVERNMENTWIDE ACTIVITIES                                                σσ   Section 308, H.R. 2146, The Digital Accountability
                                                                               and Transparency Act of 2012. OIG reviewed and
 Review of Legislation, Regulations, Directives,                               provided comments on the proposed new Section 308
 and Memoranda                                                                 (“Limits and Transparency for Travel and Conference
                                                                               Spending”) to H.R. 2146, the Digital Accountability
 σσ    2012 Farm Bill. In anticipation of upcoming
                                                                               and Transparency Act, and on the U.S.Department
       congressional deliberations and drafting of the 2012
                                                                               of Justice’s (DOJ) comments on the provisions. We
       Farm Bill, GAO and OIG coordinated and agreed
                                                                               concurred with DOJ’s concerns that Section 308 may
       to issue companion reports to Congress and to the
                                                                               be overly broad and may have a negative impact on
       Department. GAO and OIG closely coordinated
                                                                               law enforcement agencies’ ability to perform their
       and worked together to structure and then draft the
                                                                               missions. Specifically, OIG commented that the
       companion reports, which were intended to summarize
                                                                               Section’s definition of “conference” was very broad
       key findings and recommendations from previously
                                                                               and could be read to require that law enforcement
       issued GAO and OIG reports and provide Congress
                                                                               operational meetings would need to be publicly
       with principles useful in guiding consideration of the
                                                                               reported. OIG also shared DOJ’s concern that
       2012 Farm Bill sections. Those principles included
                                                                               Section 308 would require sensitive materials from
       the following: relevance, distinctiveness, targeting,
                                                                               meetings or training events falling within the broad
       affordability, effectiveness, and oversight. GAO
                                                                               definition of “conference” to be posted publicly; we
       and OIG believed that such summaries would help
                                                                               noted that disclosure of such materials, which might
       Congress make well-informed decisions about program
                                                                               include privileged information, information about
       design, while continuing to maintain the safety and
                                                                               law enforcement techniques, or information about
       security of the Nation’s food supply, promote U.S.
                                                                               fraud indicia, could be harmful to oversight efforts by
       exports, support renewable energy and conservation,
                                                                               agencies such as OIG.
       and enhance economic growth in rural communities.
       On April 23, 2012, GAO and OIG issued the
       companion reports. (Report 50099-0001-10, Farm                     Participation on Committees, Working Groups,
       Bill: Issues to Consider for Reauthorization)                      and Task Forces
 σσ    S.1409, The Improper Payments Elimination and                      σσ   Financial Fraud Enforcement Task Force (formerly
       Recovery Act of 2012 (IPERA). On August 1, 2012,                        National Procurement Fraud Task Force). OIG is a
       the Senate passed this revised bill incorporating the                   member of this task force, formed by DOJ in October
       provisions of the Presidential memorandum enhancing                     2006 as a partnership among Federal agencies charged
       payment accuracy through a “Do Not Pay List” dated                      with investigating and prosecuting Government
       June 18, 2010, and the Presidential memorandum                          contracting and grant illegalities. The purpose of
       regarding finding and recapturing improper payments,                    the task force has been expanded to include a wider
       dated March 10, 2010. OMB requested agencies to                         variety of financial crimes, from securities fraud to
       review and comment whether the bill would affect                        identity theft crimes. The task force is working to
       direct spending or receipts for the purposes of the                     better allocate resources, improve coordination in
       Statutory Pay-As-You-Go Act of 2010. On August 6,                       financial fraud cases, and accelerate their investigation
       2012, OIG noted that IPERA contains provisions to                       and prosecution. OIG Investigations field offices in
       improve accountability for improper payments and                        all OIG regions participate in procurement fraud task
       help prevent future occurrences. Such measures would                    forces initiated by the local U.S. Attorney’s Offices.
       further assist in OIG’s work and, as such, we support
                                                                          σσ   The FBI’s Heart of America Regional Computer Forensics
       IPERA. Also, we do not believe IPERA would affect
                                                                               Laboratory. OIG’s Technical Crimes Division currently
       direct spending or receipts pursuant to the Pay-As-You-
                                                                               details one examiner to the FBI’s Heart of America
       Go Act of 2010.
                                                                               Regional Computer Forensics Laboratory in Kansas
                                                                               City, Missouri. Our analyst works with the laboratory




24    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                              Goal 3




     and has helped us obtain direct access to regional                     its agricultural sector. Section 632(a) of the Act
     laboratories, training, samples of applicable policies                 transfers audit and fiduciary responsibilities over the
     and procedures, and, when needed, FBI assistance for                   transferred funds to USDA OIG; therefore, during this
     OIG computer forensic work.                                            semiannual period, we initiated two separate reviews
σσ   The FBI’s Public Corruption Working Group. An OIG                      of capacity-building activities in Afghanistan to ensure
     agent is a member of this group, which is focused on                   accountability and oversight for grants and agreements
     combating corruption by Government officials and                       receiving these funds—one review is evaluating the
     employees. Other member agencies include the U.S.                      grant awarded to a non-government organization, the
     Department of Housing and Urban Development                            other review is evaluating the Department’s activities.
     OIG, the Mississippi Attorney General’s Office, and               σσ   USDA Credit Reform Workgroup. The Financial
     Internal Affairs of the Jackson, Mississippi, Police                   Audit Operations Division of OIG participates in
     Department.                                                            this workgroup, which is composed of representatives
σσ   Recovery Act Lessons Learned Review. By law, USDA                      from all USDA credit agencies. The purpose of
     OIG is a member of the Recovery Board and is thus                      this workgroup is to address accounting, auditing,
     actively participating in a joint Recovery Board/IG                    budgeting, and reporting issues encountered by
     initiative to document the lessons learned from the                    agencies subject to the Federal Credit Reform Act of
     implementation of the Recovery Act. The objective                      1990.
     of the Lessons Learned Review is to identify which                σσ   Financial Statement Audit Network (FSAN) Workgroup.
     actions, processes, and mechanisms were beneficial                     OIG auditors are members of the FSAN workgroup,
     and which pose challenges to agencies, departments,                    whose main purpose is to share ideas, knowledge, and
     and their respective OIGs in meeting the requirements                  experience concerning Federal financial statement
     of the Recovery Act. Sixteen OIGs are participating                    audits. In conjunction with FSAN, OIG annually
     in the review. USDA OIG was involved in fieldwork                      hosts a financial statement audit conference for the
     from March through July 2012. The report is being                      Federal financial community.
     drafted.
σσ   Agency Verification of Recovery Act Funds. USDA OIG               Reviews Coordinated With Other Government
     is working with RATB to coordinate with USDA                      Entities
     Department and agency managers in reviewing and
     confirming Recovery Act expenditures.                             σσ   Special Inspector General for Afghanistan Reconstruction
                                                                            (SIGAR) Coordination Efforts. SIGAR notified
σσ   Intra-Departmental Coordinating Committee on
                                                                            USDA OIG that it plans to initiate a financial audit
     International Affairs. OIG auditors continue to
                                                                            of USDA’s large-dollar funded agreements and grants
     participate in this committee’s meetings. Headed by
                                                                            for reconstruction activities in Afghanistan. To
     FAS, the purpose of the committee (which includes
                                                                            avoid potential duplication of efforts, OIG auditors
     most USDA agencies) is to coordinate USDA’s
                                                                            coordinated with SIGAR staff to discuss OIG’s current
     international activities. Some of the committee’s
                                                                            work on capacity-building activities in Afghanistan.
     activities include USDA’s role in implementing
                                                                            Due to this coordination, we have agreed to focus our
     the President’s National Export Initiative, country
                                                                            review of a non-government organization’s activities
     strategy statements, reconstruction and capacity-
                                                                            on program performance while relying on SIGAR’s
     building activities in Pakistan and Afghanistan, and
                                                                            financial audit of the non-government organization.
     international food security and assistance.
                                                                       σσ   USAID’s Quarterly Progress and Oversight of Civilian
σσ   Afghanistan Country Team. OIG auditors continue to
                                                                            Assistance Efforts in Pakistan. USAID OIG publishes
     participate in the Afghanistan country team meetings,
                                                                            a quarterly report on the progress and oversight of
     during which we learned that the Department was
                                                                            civilian assistance efforts in Pakistan in association
     receiving funds from USAID under the Foreign
                                                                            with U.S. Departments of State and Defense OIGs.
     Assistance Act of 1961 to help Afghanistan revitalize




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half             25
                                                                    Goal 3




       To acknowledge USDA’s civilian assistance activities                  σσ   Section 632(a) transfer of funds for Afghanistan from
       in Pakistan, OIG auditors provided USAID with                              USAID to USDA (FAS, NIFA),
       information related to our current oversight review of                σσ   review of a non-governmental organization in
       those activities to include in its quarterly report, as of                 Afghanistan (FAS),
       June 30, 2012.
                                                                             σσ   private voluntary organization grant fund
                                                                                  accountability (FAS),
 Testimony Delivered                                                         σσ   international trade policy and procedures (FAS, FSIS,
 σσ    Deputy Inspector General David R. Gray Testifies                           ARS, APHIS, FS, AMS),
       Before the House Committee on Energy and Commerce                     σσ   FS’ firefighting cost-share agreements with non-Federal
       Subcommittee on Communications and Technology.                             entities (FS),
       On May 16, 2012, Deputy Inspector General Gray
                                                                             σσ   FY 2012 Federal Information Security Management
       presented testimony on OIG’s work to help improve
                                                                                  Act report (OCIO),
       oversight of USDA’s broadband grant and loan
       programs. The testimony described OIG’s audit work                    σσ   beef research and promotion board activities (AMS),
       to assess RUS’ administration of the programs to                           and
       ensure they meet their intended purposes and benefit                  σσ   USDA controls over Economy Act transfers and
       those needing broadband service. OIG has identified                        Greenbook Program charges (OCFO).
       RUS’ policies that allow overlapping broadband
       coverage as an area of concern, as the practice could
       lead to RUS encouraging competition rather than
                                                                             ONGOING REVIEWS FOR GOAL 3
       expanding service to areas without any broadband                      UNDER RECOVERY ACT FUNDS
       access. OIG is committed to working with RUS to                       σσ   ARS’ contract closeout process (ARS),
       ensure these broadband programs and operations fulfill
                                                                             σσ   procurement oversight of the Invasive Plant Research
       their important missions as intended.
                                                                                  Laboratory contract (ARS),
                                                                             σσ   Federalreporting.gov March 2011 data quality review
 ONGOING REVIEWS FOR GOAL 3                                                       (USDA),
 σσ    Review of FSA’s accounting for FY 2012—improper                       σσ   data quality review of jobs reported as created or saved
       payment reporting (FSA),                                                   by USDA Recovery Act programs (USDA),
 σσ    USDA and its agencies’ financial statements for FY                    σσ   Broadband Initiative Program—pre-approval controls
       2012 (OCFO),                                                               (RUS),
 σσ    review of selected controls of the eAuthentication                    σσ   Broadband Initiative Program—post-approval controls
       system (OCIO),                                                             (RUS),
 σσ    NRCS’ oversight and compliance activities (NRCS),                     σσ   procurement oversight audit of South Building
 σσ    Pigford 2—distribution of settlement funds for                             modernization project (phase 4a, wing 5)
       discrimination litigation (USDA),                                          (Departmental Management),
 σσ    overlap and duplication in FNS’ nutrition programs                    σσ   Recovery Act performance measures for SNAP (FNS),
       (FNS),                                                                σσ   Rural Business Enterprise grants Recovery Act
 σσ    review of USDA’s bank purchase and travel card data                        confirmations (RBS), and
       (USDA),                                                               σσ   FS’ use of funds for hazardous fuels reduction (FS).
 σσ    review of the Procurement Operations Division
       (OCIO),




26    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                     Goal 4




Stewardship Over Natural Resources
OIG Strategic Goal 4:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                          GOAL 4
Increase the efficiency and effectiveness with which
USDA manages and exercises stewardship over                               RECOVERY ACT REVIEWS
natural resources                                                         FS Should Include Required Provisions in Contracts
OIG’s audits and investigations focus on USDA’s management                to Remediate Abandoned Mines
and stewardship of natural resources, including soil, water, and          The Recovery Act authorized $22.7 million for FS to remediate
recreational settings. Our work in this area is vital because             abandoned mines on National Forest System land. Based on
USDA is entrusted with hundreds of billions of dollars in                 reviews of 12 of the 16 total abandoned mine remediation
fixed public assets, such as 193 million acres of national forests        projects, OIG determined that laws and regulations pertaining
and grasslands. USDA also provides scientific and technical               to Recovery Act funding were not always complied with.
knowledge for enhancing and protecting the economic                       While the agency established four specialized operation centers
productivity and environmental quality of the estimated 1.5               to execute and manage FS’ Recovery Act awards in a consistent
billion acres of forests and associated rangelands in the United          manner, FS did not always include required Recovery Act
States.                                                                   provisions in the contracts it used because the agency did not
In the second half of FY 2012, we devoted 5 percent of our                have a standard template specific to Recovery Act contracts.
total direct resources to Goal 4, with 100 percent of these               Also, in a prior Fast Report, we reported that personnel were
resources assigned to critical/high-impact work. A total of 100           not performing reviews of 10 percent of their contracts, as
percent of our audit recommendations under Goal 4 resulted in             required. After our Fast Report was issued, FS disbanded the
management decision within 1 year, while 100 percent of our               specialized operation centers and shifted the responsibility to
investigative cases resulted in criminal, civil, or administrative        conduct quality assurance reviews to the regions. However,
action. OIG issued five audit reports under Goal 4 during                 we found that the standardized template regions use did not
this reporting period. OIG’s investigations under Goal 4                  contain any guidance on how regions were to conduct quality
yielded one indictment, one conviction, and about $50,000 in              assurance reviews for the Recovery Act contracts. To address
monetary results during this reporting period.                            these issues, we previously recommended that FS immediately
                                                                          modify its contract templates to include the necessary Recovery
                                                                          Act provisions. We also recommended that FS develop a
 Management Challenges Addressed Under Goal 4                             supplement to the standardized plan template, informing the
                                                                          regions of their responsibility for conducting quality assurance
 σσ     Strong, Integrated Internal Control Systems Still Needed
                                                                          reviews for all Recovery Act contracts. FS concurred with
        (also under Goals 1, 2, and 3)
                                                                          our recommendations. (Audit Report 08703-0006-SF, Forest
 σσ     Forest Service Management and Community Action                    Service—American Recovery and Reinvestment Act Forest
        Needed to Improve Forest Health and Reduce                        Service Capital Improvement and Maintenance Projects
        Firefighting Costs
                                                                          Abandoned Mine Remediation)

                                                                          FS Needs to Improve Guidance and Reviews Related
                                                                          to Trail Project Grants
                                                                          Of the $650 million the Recovery Act provided FS for its
                                                                          capital improvement and maintenance fund, FS allocated
                                                                          $99 million to trail projects. We reviewed 24 of the 90 total
                                                                          trail projects and determined that FS needs to take corrective
                                                                          action to address issues related to compliance with laws and
                                                                          regulations, as we previously reported to agency officials.
                                                                          Specifically, FS awarded a $9 million youth employment grant




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half       27
                                                                   Goal 4




with funds from three FS programs without specifying to the             grant recipients’ documentation for the remaining wood-to-
grantee the conditions associated with the use of each program’s        energy projects to ensure the use of Recovery Act funds was
funds. As a result, we found that subgrants, totaling $317,741,         supported and in accordance with the terms and provisions of
included activities unrelated to the three FS programs. FS also         the grant agreement. FS concurred. (Audit Report 08703-
arbitrarily allocated over $1.65 million of grant expenditures          0001-SF, American Recovery and Reinvestment Act—Forest
because the grantee was not required to track the expenditures          Service—Wildland Fire Management—Wood to Energy
to the three FS programs separately. We also found that FS              Projects)
program managers at two national forests did not adequately
                                                                        FS Needs to Improve Guidance and Monitoring of
review payment requests from program recipients to ensure
                                                                        Facility Project Contractors
that project expenses claimed were for actual and allowable
costs. Instead, program managers relied on the recipients to            The Recovery Act provided FS with $246 million for facility
submit accurate claims. As a result, FS overpaid $64,096 in             projects. OIG conducted an audit to determine whether FS
labor costs to one recipient, and reimbursed another $24,697            complied with laws and regulations pertaining to the Recovery
in questionable costs. We recommend that FS provide its                 Act, selected facility projects that met eligibility and program
grantee with specific direction, recover all unallowable costs,         requirements, completed facility projects timely and effectively,
and work with the grantee to allocate actual grant expenditures         and supported the information it reported to measure program
appropriately. FS generally concurs with the report’s findings          performance. We found that FS did not have adequate controls
and recommendations. (Audit Report 08703-0004-SF,                       in place to ensure contracts met Recovery Act and other Federal
American Recovery and Reinvestment Act—Forest Service                   laws and regulations, which we also noted in prior reports.
Capital Improvement and Maintenance Projects—Trail                      For example, FS contracting officials did not adequately
Maintenance and Decommissioning)                                        review contractors’ payrolls and materials on some projects
                                                                        before issuing payments. Due to control deficiencies, several
FS Needs to Ensure That Grant Costs Are Supported                       projects violated Federal requirements, two cardholders made
and in Accord With Agreements                                           purchases exceeding the $3,000 micro-purchase threshold, and
The Recovery Act awarded FS $50 million for wood-to-                    contractors were not informed of their contractual requirements
energy projects that promote increased utilization of biomass           for the 17 facility contracts, totaling $2.9 million. To
from Federal, State, and private lands. Based on a statistical          address these weaknesses, FS needs to improve its monitoring
sample of 9 of the 21 wood-to-energy projects FS funded,                of contractors’ payrolls and materials, ensure they follow
we found that the selected projects met eligibility and                 applicable laws and regulations, and issue specific guidance on
program requirements and that reporting requirements were               how to do so. FS should also ensure that its cardholders follow
met. However, the agency did not ensure that funds were                 existing controls over the use of purchase cards by issuing
used properly. FS accepted and approved payments to grant               written guidance to remind all cardholders of its policies. FS
recipients without obtaining and reviewing documentation to             concurred with our recommendations. (Audit Report 08703-
support the use of Recovery Act funds or ensuring work was              0002-SF, American Recovery and Reinvestment Act—Forest
completed per the terms of the grant agreement. Based on the            Service Capital Improvement and Maintenance Projects—
results from our sample, we statistically projected unsupported         Facility Improvement, Maintenance, and Rehabilitation)
costs of about $9 million. Since FS used the same controls
                                                                        FS Needs to Improve Field-Level Control Systems for
to monitor Recovery Act and non-Recovery Act grants, our
                                                                        Its Wildland Fire Management Program Operations
findings apply to both Recovery Act and non-Recovery Act
grants. In response to our earlier issued Fast Reports, FS              To fund program activities on Federal lands, such as hazardous
agreed to obtain documentation from four grant recipients               fuels reduction, forest health protection, and woody biomass
to verify the use of funds and to recover any unallowable               utilization, the Recovery Act provided FS’ Wildland Fire
payments and interest received by these recipients. In addition,        Management Program with an additional $250 million.
FS will require the grant recipients to provide supporting              Through reviews of the four largest dollar national projects with
documentation and will also amend the specific grant                    52 associated contracts, agreements, and grants—including
agreements to provide clarity. We recommended FS review                 biomass utilization grants—we determined that FS needs to




28     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                 Goal 4




improve its field-level control systems for monitoring contractor     North Carolina Individual Sentenced for Unauthorized
and grantee compliance with requirements. Grantees need to            Fill of a Wetland
verify that their employees are legally authorized to work in
                                                                      A joint investigation with the Eastern District of North
the United States, inform and pay workers mandated wages
                                                                      Carolina’s Environmental Crimes Working Group determined
and benefits, and accurately track and monitor the use of grant
                                                                      that an individual enrolled his farm in FSA’s Conservation
funds. Without effective procedures to ensure compliance
                                                                      Reserve Enhancement Program, which requires compliance
and oversee grantees, FS increases its risk that contractors
                                                                      with wetland conservation rules as outlined in the 1985 Food
may employ unauthorized workers on Federal contracts. FS
                                                                      Security Act. The individual pled guilty in U.S. District
also did not discern wage problems that existed, such as
                                                                      Court, Eastern District of North Carolina, to one count of
underpayments to employees, as well as whether one company
                                                                      unauthorized fill of a wetland. In April 2012, the individual
used $2.5 million grant funds for the intended purpose. Thus,
                                                                      was sentenced to 3 years’ probation with the first 6 months
we recommended that FS develop and implement policies,
                                                                      being served as home confinement, was fined $15,000, and
procedures, and guidance related to the use of a verification
                                                                      was required by the plea agreement to withdraw from the
system, determine if corrective actions are needed, and ensure
                                                                      conservation program and forgo future payments.
that underpaid employees are reimbursed. FS generally agreed
with our recommendations. (Audit Report 08703-0001-At,
Forest Service’s Use of Recovery Act Funds for Wildland Fire
Management on Federal Lands)




  GOVERNMENTWIDE ACTIVITIES—GOAL 4                                        σσ   Minnesota Pest Risk Committee. OIG participates in
                                                                               this committee, which is composed of Federal, State,
  Participation on Committees, Working Groups,                                 and local representatives who focus on efforts used in
  and Task Forces                                                              Minnesota to intercept and control invasive plants,
                                                                               insects, and animals that are detrimental to the State.
  σσ    Environmental Crimes Working Groups. OIG agents
        continue to participate in working groups convened
        by U.S. Attorney’s Offices in the District of New                 ONGOING REVIEWS FOR GOAL 4
        Hampshire, the Eastern District of North Carolina,
                                                                          σσ   management of oil and gas resources on National
        and the Western District of Washington State to
                                                                               Forest System land (FS).
        improve cooperation and coordination among local,
        State, and Federal law enforcement agencies enforcing
        environmental laws, as well as to exchange information            ONGOING REVIEWS FOR GOAL 4
        and provide prosecutorial support and training                    UNDER RECOVERY ACT FUNDS
        opportunities. An OIG agent also continues to
                                                                          σσ   performance measures for Recovery Act projects (FS),
        participate in an environmental and natural resources
                                                                               and
        law enforcement working group in Arizona, which has
        similar goals of improving training and coordination              σσ   hazardous fuels reduction and ecosystem restoration on
        for investigators working on natural resources cases.                  non-Federal lands (FS).




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half              29
                                                              Impact of the OIG




Gauging the Impact of OIG
Measuring Progress Against the OIG Strategic Plan                        For audits we show:
The first way we gauged our impact was by measuring the                  σσ       reports issued,
extent to which our work focused on the key issues under our             σσ       management decisions made (number of reports and
FY 2010 goals. These are:                                                         recommendations),

1.	   Strengthen USDA’s ability to implement safety and security         σσ       total dollar impact of management-decision reports
      measures to protect the public health as well as agricultural               (questioned costs and funds to be put to better use),
      and Departmental resources.                                        σσ       program improvement recommendations, and
2.	   Reduce program vulnerabilities and strengthen program              σσ       audits without management decision.
      integrity in the delivery of benefits to individuals.
3.	   Support USDA in implementing its management                        For investigations we show:
      improvement initiatives.
                                                                         σσ       indictments,
4.	   Increase the efficiency and effectiveness with which USDA
                                                                         σσ       convictions,
      manages and exercises stewardship over natural resources.
                                                                         σσ       arrests,
Impact of OIG Audit and Investigative Work on                            σσ       total dollar impact (recoveries, restitutions, fines, asset
Department Programs                                                               forfeiture),
                                                                         σσ       administrative sanctions, and
A second way we gauge our impact is by tracking the
                                                                         σσ       OIG Hotline complaints.
outcomes of our audits and investigations. Many of these
measures are codified in the IG Act of 1978, as amended. The
following pages present a statistical overview of the OIG’s
accomplishments this period.




                               PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                                       FY 2012         FY 2012
                                                                                       FY 2011        FY 2012
 Performance Measures                                                                                                  2nd Half        Full Year
                                                                                        Actual         Target
                                                                                                                        Actual          Actual

 OIG direct resources dedicated to critical-risk and high-impact activities.            97.2%           92%             97.3%           97.7%


 Audit recommendations where management decisions are achieved within
                                                                                        90.1%           90%              99%            96.8%
 1 year.

 Audits initiated where the findings and recommendations are presented to
                                                                                        100%            90%             91.2%           91.9%
 the auditee within established or agreed-to timeframes.
 Closed investigations that resulted in a referral for action to the
 Department of Justice, State or local law enforcement officials, or relevant           82.5%           70%             91.3%           88.8%
 administrative authority.
 Closed investigations that resulted in an indictment, conviction, civil suit
                                                                                        70.4%           65%             73.2%           71.2%
 or settlement, judgment, administrative action, or monetary result.




30     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                Impact of the OIG




                         RECOVERY ACT PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                              FY 2012      FY 2012
                                                                                     FY 2011      FY 2012
 Performance Measures                                                                                         2nd Half     Full Year
                                                                                      Actual       Target
                                                                                                               Actual       Actual
 Notify USDA agency managers of significant audit findings related to
 Recovery Act programs along with recommendations for corrective action              86.7%         85%          N/A         100%
 within 30 days after identification.
 Respond to Recovery Accountability and Transparency Board-sponsored
                                                                                      100%         85%         85.7%        94.4%
 requests and projects within established schedules or agreed-to timeframes.

 An investigative determination to accept or decline an allegation of
                                                                                      100%         100%         N/A         100%
 whistleblower retaliation is made within 180 days of receipt.

 Whistleblower retaliation allegations are investigated and reported within
                                                                                      N/A          75%          N/A          N/A
 180 days of receipt.*

 Timely and accurate monthly Recovery Act funds reports submitted to the
                                                                                      100%         95%         100%         100%
 Recovery Board.

*No whistle blower retaliation allegations were investigated.




Recognition of Oig Employees by the Secretary and IG Community
SECRETARY’S HONOR AWARD                                                    COUNCIL OF THE INSPECTORS GENERAL ON INTEGRITY
                                                                           AND EFFICIENCY (CIGIE) AWARDS
Management Excellence
Audit and Investigations Recovery Act Team
                                                                           Awards for Excellence
Audit and Investigations                                                   USDA Country of Origin Labeling Team
                                                                           Audit
The President’s Volunteer Service Award                                    Michigan Bridge Card Enforcement Team
Elizabeth Gurklies                                                         Investigations
Audit
Kathy Hammer
Management




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half    31
                                                                       Impact of the OIG




                                        SUMMARY OF AUDIT ACTIVITIES—APRIL-SEPTEMBER 2012
                                                                Audits Performed by OIG                                                                 38
Reports Issued: 41                                              Audits Performed Under the Single Audit Act                                              0
                                                                Audits Performed by Others                                                               3
                                                                Number of Reports                                                                       35
Management Decisions Made
                                                                Number of Recommendations                                                              196
                                                                Total Questioned/Unsupported Costs                                             $269.3a, b

Total Dollar Impact (Millions) of Management-                       -Recommended for Recovery                                                         $15.4
Decided Reports: $269.3 million                                     -Not Recommended for Recovery                                                    $253.9
                                                                Funds To Be Put to Better Use                                                           $0
	 These were the amounts the auditees agreed to at the time of management decision.
a

	The recoveries realized could change as auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded as debts due
b

  the Department.




                                    SUMMARY OF FAST REPORTS ISSUED—APRIL-SEPTEMBER 2012
Ongoing OIG Assignments Containing                              Fast Reports Issued                                                                      1
Fast Reports Issued to the Agency: 1a                           Number of Recommendations Made                                                           4
                                                                Total Questioned/Unsupported Costs                                                      $0

Total Dollar Findings (Millions) of                                 -Recommended for Recovery                                                           $0
Fast Reports Issued: $0b                                            -Not Recommended for Recovery                                                       $0
                                                                Funds to Be Put to Better Use                                                           $0
a
    	 Fast Reports are quick turnaround reports intended to alert management to immediate issues during the course of an ongoing audit assignment.
b
    	Monetary findings identified in Fast Reports are included in Table 3, Summary of Audit Activities. (Final report could occur in future SARC
      reporting periods).




32        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                     Impact of the OIG




                               SUMMARY OF INVESTIGATIVE ACTIVITIES—APRIL-SEPTEMBER 2012
                                                                 Cases Opened                                                            243
Reports Issued: 189
                                                                 Cases Referred for Prosecution                                          232
                                                                 Indictments                                                             459
                                                                 Convictions    a
                                                                                                                                         320
Impact of Investigations
                                                                 Searches                                                                227
                                                                 Arrests                                                                 423
                                                                 Recoveries/Collections        b
                                                                                                                                         $2.8
                                                                 Restitutions   c
                                                                                                                                        $47.9
                                                                 Fines   d
                                                                                                                                         $0.9
Total Dollar Impact (Millions): $57.5                            Asset Forfeitures   e
                                                                                                                                         $2.0
                                                                 Claims Established        f
                                                                                                                                         $0.6
                                                                 Cost Avoidance     g, i
                                                                                                                                         $2.9
                                                                 Administrative Penalties          h
                                                                                                                                         $0.4
                                                                 Employees                                                                13
Administrative Sanctions: 182
                                                                 Businesses/Persons                                                      169
a	
    Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
    therefore, the 320 convictions do not necessarily relate to the 459 indictments.
b
  	Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
  	 Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
   	Fines are court-ordered penalties.
e
  	 Asset forfeitures are judicial or administrative results.
f
  	 Claims established are agency demands for repayment of USDA benefits.
g
  	 Consists of loans or benefits not granted as the result of an OIG investigation.
h
   	Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.
i
 	 Includes an Office of Compliance and Integrity cost avoidance.




                                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half       33
                                                        Impact of the OIG




FULL FY 2012 RESULTS IN KEY CATEGORIES—OCTOBER 1, 2011-SEPTEMBER 30, 2012
                                             SUMMARY OF AUDIT ACTIVITIES
Reports Issued:
     Number of Reports                                                             76
     Number of Recommendations                                                    350
Management Decisions Made:
     Number of Reports                                                             69
     Number of Recommendations                                                    404
Total Dollar Impact (Millions) of Management-Decided Reports                  $1,439.2
     Questioned/Unsupported Costs                                             $1,438.4
     Funds To Be Put To Better Use                                               $0.8




                                       SUMMARY OF INVESTIGATIONS ACTIVITIES
Reports Issued                                                                    331
     Indictments                                                                  793
     Convictions                                                                  538
     Arrests                                                                      684
Total Dollar Impact (Millions)                                                  $106.3
Administrative Sanctions                                                          329




34    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                             Impact of the OIG




                               INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS—
                                                    APRIL-SEPTEMBER 2012
                                                                                                                     UNSUPPORTEDa
                            CATEGORY                        NUMBER          QUESTIONED COSTS AND LOANS
                                                                                                                    COSTS AND LOANS
Reports for which no management decision had
                                                             10                                  $297,496,671            $3,739,135
been made by April 1, 2012.b
Reports which were issued during the reporting
                                                             15                                  $280,600,339           $24,054,758
period.
Total reports with questioned costs and loans                25                                  $578,097,010            $27,793,893
                                                                      Recommended for
                                                                                                  $15,370,335                    $0
                                                                      recovery
Of the 25 reports, those for which management
                                                             15       Not recommended
decision was made during the reporting period.                                                   $253,947,512            $3,483,512
                                                                      for recovery
                                                                      Costs not disallowed        $15,831,119            $7,777,611
Of the 25 reports, those for which no management
decision has been made by the end of this reporting          10                                  $294,024,926           $16,532,770
period.
Total current reports for which no management
                                                              3                                  $263,182,214             $1,039,135
decision was made within 6 months of issuance.b
a
    Unsupported values are included in questioned values.
b
    Carried over from previous reporting periods.




               INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                            CATEGORY                                    NUMBER                  DOLLAR VALUE
Reports for which no management decision had been made by
                                                                                             0                                   $0
April 1, 2012.a
Reports which were issued during the reporting period.                                       3                         $117,124,151
Total reports with recommendations that funds be put to better use                           3                          $117,124,151
                                                                                                   Disallowed costs              $0
Of the 3 reports, those for which management decision was made during the
                                                                                             0     Costs not
reporting period.                                                                                                                $0
                                                                                                   disallowed
Of the 3 reports, those for which no management decision has been made by
                                                                                             3                         $117,124,151
the end of this reporting period.
Total current reports for which no management decision was made within
                                                                                             0                                   $0
6 months of issuance.a
a
    Carried over from previous reporting periods.




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half      35
                                                              Impact of the OIG




Program Improvement Recommendations                                      Audit and Investigation Peer Reviews
While some audit recommendations carry no monetary                       σσ       During the current semiannual reporting period, the
value per se, their impact can be immeasurable in terms                           Environmental Protection Agency (EPA) OIG conducted an
of safety, security, and public health. They can also                             audit peer review of USDA OIG’s audit organization. The
contribute considerably toward economy, efficiency, and                           EPA OIG peer review team has completed its fieldwork; the
                                                                                  exit conference is scheduled for October 2012, and EPA
effectiveness in USDA’s programs and operations. During
                                                                                  OIG plans to issue its report and letter of comments with
this reporting period, we issued 176 program improvement
                                                                                  USDA OIG’s response shortly thereafter.
recommendations, and management agreed to implement a
total of 174 that were issued this period or earlier. Examples of        σσ       Because peer reviews are performed on a 3-year cycle,
                                                                                  no peer reviews of OIG’s investigation organization were
those issued this period include the following (see the main text
                                                                                  performed during the current semiannual reporting period.
of this report for a summary of the audits that prompted these
                                                                                  Our most recent review was conducted in 2010 by the
recommendations):                                                                 Department of Homeland Security OIG. The report, issued
σσ    FSIS officials agreed to provide the beef processing industry               November 10, 2010, contained no recommendations and
      with clearer guidance regarding how plants should respond                   determined that OIG is in compliance with the quality
      to sudden increases in positive E. coli tests.                              standards established by CIGIE and the Attorney General.
σσ    Departmental officials agreed to ensure that grants awarded
      by OAO were awarded to the most meritorious applicants.
σσ    FNS agreed that it should make better use of its existing
      tools for detecting fraud, waste, and abuse in SNAP.
σσ    OCIO agreed that it needs to improve how it prioritizes and
      funds IT security improvements.




36     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                      Impact of the OIG




Audit Reports
From April through September 2012, OIG issued 41 audit reports, including 3 performed by others. During this same period, one
Fast Report was issued. The following is a summary of those audit products by agency:


                                                        AUDIT AND FAST REPORT TOTALS
 Total funds that can be put to better use                                                                                                $117,124,151

 Total questioned costs and loansa, b                                                                                                     $280,600,339
 	 Unsupported values of $24,054,758 are included in the questioned values.
 a

 	Includes Fast Report monetary values of $0. (Final reports could occur in future SARC reporting periods).
 b




                     SUMMARY OF AUDIT AND FAST REPORTS RELEASED FROM APRIL-SEPTEMBER 2012
                                                                                                                                           FUNDS TO BE
                                                                                QUESTIONED COSTS            UNSUPPORTED COSTS
                   AGENCY TYPE                         AUDITS RELEASED                                                                    PUT TO BETTER
                                                                                  AND LOANSa, c                 AND LOANS
                                                                                                                                               USE
 SINGLE AGENCY AUDIT                                            39                 $280,600,339                   $24,054,758              $117,124,151

 MULTIAGENCY AUDIT                                                3                              $0                           $0                           $0
 TOTAL COMPLETED UNDER
                                                                  3
 CONTRACTb
 ISSUED AUDITS COMPLETED
 UNDER THE SINGLE AUDIT ACT
 a
   	 Unsupported values of $24,054,758 are included in the questioned values.
 b
   	Audits performed by others.
 c
   	Includes Fast Report monetary values of $0 for one Fast Report issued during this period. Final report could occur in future SARC reporting periods.




                                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half                     37
                                                      Impact of the OIG




                     AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                        FROM APRIL-SEPTEMBER 2012
                                                                          QUESTIONED    UNSUPPORTED     FUNDS TO
 AUDIT TOTALS                       RELEASE
                 AUDIT NUMBER                            TITLE             COSTS AND     COSTS AND      BE PUT TO
  BY AGENCY                          DATE
                                                                             LOANS         LOANS       BETTER USE
Agricultural                              National Organic Program’s
Marketing          01601-0001-23 07/20/12 National List of Allowed
Service: 1                                and Prohibited Substances
                                          Procurement Oversight
                                          Audit of the Invasive
                   02703-0001-10 09/07/12
                                          Plant Research Laboratory
                                          Contract
                                          Procurement Oversight
Agricultural
                                          Audit of Red River Valley
Research           02703-0002-10 06/18/12
                                          Agricultural Research
Service: 3
                                          Center Contract
                                          Procurement Oversight
                                          Audit of National Center
                 02703-0007-HQ 06/07/12
                                          Agricultural Utilization
                                          Research Contract
Animal and                                Effectiveness of the
Plant Health                              Smuggling, Interdiction,
                 33601-0012-CH 08/20/12
Inspection                                and Trade Compliance
Service: 1                                Unit
                                          Fast Report: Controls
                                          Over the Grant
                                          Management Process of
Departmental         91099-0001-          the Office of Advocacy
                                 05/18/12
Management: 1              21(1)          and Outreach–Section
                                          2501 Program Grantee
                                          Selection for Fiscal Year
                                          2012
                                          Review of Farm Service
                   03401-0001-11 05/14/12 Agency Accounting for           $28,100,000
                                          Fiscal Year 2011
                                          Farm Storage Facility Loan
                   03601-0001-32 06/18/12                                  $2,199,728     $2,199,728
                                          Program
                                          Biomass Crop Assistance
Farm Service                              Program: Collection,
Agency: 5         03601-0028-KC 05/30/12 Harvest, Storage, and               $379,169
                                          Transportation Matching
                                          Payments Program
                                          2008 Farm Bill’s Changes
                  03601-0050-TE 06/20/12
                                          to Payment Limitation
                                          Conservation Reserve
                  03601-0051-TE 07/25/12                                  $12,729,539    $12,729,539   $114,565,851
                                          Program–Soil Rental Rates
                                          Analysis of Massachusetts’
                                          Supplemental Nutrition
                   27002-0008-13 04/30/12                                    $117,767
                                          Assistance Program
Food and                                  Eligibility Data
Nutrition
                                          Analysis of New Jersey’s
Service: 6
                                          Supplemental Nutrition
                   27002-0009-13 04/19/12                                    $569,098
                                          Assistance Program
                                          Eligibility Data

38    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                 Impact of the OIG




                   AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      FROM APRIL-SEPTEMBER 2012
                                                                       QUESTIONED      UNSUPPORTED        FUNDS TO
 AUDIT TOTALS                   RELEASE
                 AUDIT NUMBER                       TITLE               COSTS AND       COSTS AND         BE PUT TO
  BY AGENCY                      DATE
                                                                          LOANS           LOANS          BETTER USE
                                          Analysis of New York’s
                                          Supplemental Nutrition
                 27002-0010-13 06/14/12                                  $1,268,260
                                          Assistance Program
                                          Eligibility Data
                                          Analysis of FNS’
                                          Supplemental Nutrition
                 27002-0011-13 09/28/12   Assistance Program Fraud
Food and                                  Prevention and Detection
Nutrition                                 Efforts
Service: 6                                Recovery Act Impacts on
                                          Supplemental Nutrition
                 27703-0002-AT 06/01/12
                                          Assistance Program–
                                          Planning Phase One
                                          Recovery Act: The
                                          Emergency Food
                 27703-0003-AT 06/07/12
                                          Assistance Program, Phase
                                          II
                                          Application of FSIS
                                          Sampling Protocol for
                 24601-0001-31 05/09/12
                                          Testing Beef Trim for
                                          E  coli O157:H7
Food Safety                               Review Appeals of
and Inspection   24601-0002-31 04/05/12   Humane Handling
Service: 3                                Noncompliance Records
                                          Assessment of FSIS
                                          Inspection Personnel
                 24601-0011-HY 04/30/12
                                          Shortages in Processing
                                          Establishments
                                          Forest Service’s Use of
                                          Recovery Act Funds
                 08703-0001-AT 09/28/12   for Wildland Fire                                                $1,500,000
                                          Management on Federal
                                          Lands
                                          Recovery Act: Forest
                                          Service Wildland Fire
                 08703-0001-SF 06/15/12                                  $9,061,395       $9,061,395
                                          Management–Wood-to-
                                          Energy Projects
                                          Recovery Act: Forest
Forest                                    Service Capital
Service: 5                                Improvement and
                 08703-0002-SF 07/03/12   Maintenance Projects–               $8,089
                                          Facility Improvement,
                                          Maintenance, and
                                          Rehabilitation
                                          Recovery Act: Forest
                                          Service Capital
                                          Improvement and
                 08703-0004-SF 07/03/12                                    $406,534          $64,096
                                          Maintenance Projects–
                                          Trail Maintenance and
                                          Decommissioning

                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half   39
                                                      Impact of the OIG




                     AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                        FROM APRIL-SEPTEMBER 2012
                                                                           QUESTIONED    UNSUPPORTED    FUNDS TO
 AUDIT TOTALS                       RELEASE
                  AUDIT NUMBER                           TITLE              COSTS AND     COSTS AND     BE PUT TO
  BY AGENCY                          DATE
                                                                              LOANS         LOANS      BETTER USE
                                              Recovery Act: Forest
                                              Service Capital
Forest                                        Improvement and
                  08703-0006-SF 05/03/12
Service: 5                                    Maintenance Projects–
                                              Abandoned Mine
                                              Remediation
                                              Fiscal Year 2011 Executive
                                              Order 13520, Reducing
                  50024-0002-11 09/28/12      Improper Payments, High
                                              Dollar Overpayment
                                              Report Review
                                              USDA’s Configuration,
                                              Management, and Security
Multi-agency: 3   50501-0001-12 04/19/12
                                              Over Domain Name
                                              System Servers
                                              Section 632(a) Transfer
                                              of Funds from U.S.
                  50601-0001-16 09/27/12      Agency for International
                                              Development to USDA—
                                              Pakistan
                                              Fiscal Year 2011 NRCS
                  10024-0001-11 05/18/12
                                              Improper Payment Review
                                              Recovery Act: Watershed
                                              Protection and Flood
Natural           10703-0004-KC 07/24/12      Prevention Operations         $1,285,000
Resources                                     Program, Field
Conservation                                  Confirmations
Service: 3                                    Migratory Bird Habitat
                                              Initiative: NRCS’
                  10704-0001-32 08/09/12      Response to Issues Caused        $86,760                  $1,058,300
                                              by the Deepwater Horizon
                                              Oil Spill
                                              Agreed-Upon
                                              Procedures: Employee
                                              Benefits, Withholdings,
                                              Contributions, and
                  11401-0003-11 09/25/12      Supplemental Semiannual
                                              Headcount Reporting
Office of the                                 Submitted to the U.S.
Chief Financial                               Office of Personnel
Officer: 2                                    Management
                                              Statements on Standards
                                              for Attestation
                  11401-0004-11 09/27/12      Engagement No. 16
                                              Report on Controls at the
                                              National Finance Center




40    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                       Impact of the OIG




                            AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                               FROM APRIL-SEPTEMBER 2012
                                                                                                   QUESTIONED        UNSUPPORTED      FUNDS TO
  AUDIT TOTALS                                 RELEASE
                        AUDIT NUMBER                                      TITLE                     COSTS AND         COSTS AND       BE PUT TO
   BY AGENCY                                    DATE
                                                                                                      LOANS             LOANS        BETTER USE
                                                Review of the Office of
 Office of
                                                the Assistant Secretary for
 Adjudication
                         60601-0001-23 08/09/12 Civil Rights’ Oversight of
 and
                                                Agreements Reached in
 Compliance: 1
                                                Program Complaints
                                                Review of Selected
                                                Controls at the National
                         88401-0001-11 09/26/12
 Office of                                      Information Technology
 the Chief                                      Center
 Information                                    Audit of OCIO’s Fiscal
 Officer: 2                                     Years 2010 and 2011
                         88401-0001-12 08/02/12
                                                Funding Received for
                                                Security Enhancements
 Risk
                                                             RMA: Validity of New
 Management            05099-0114-KC 08/13/12                                                        $3,310,000
                                                             Producers
 Agency: 1
                                                             Recovery Act: Rural
 Rural Business-
                                                             Development’s Controls
 Cooperative           34703-0002-KC 09/05/12
                                                             Over Rural Business
 Service: 1
                                                             Enterprise Grants
                                                             Rural Development’s Rural
                                                             Rental Housing Program
                       04601-0018-CH 09/27/12
                                                             Maintenance Costs and
                                                             Inspection Procedures
                                                             Recovery Act: Internal
                                                             Controls Over the Rural
 Rural Housing
                       04703-0002-HY 09/28/12                Community Facilities
 Service: 3
                                                             Direct Grant and Loan
                                                             Programs (Phase II)
                                                             Single-Family Housing
                                                             Direct Loans Recovery
                       04703-0003-KC 06/13/12                                                     $221,000,000
                                                             Act Controls–Compliance
                                                             Review
                                                             Recovery Act: RUS
 Rural Utilities                                             Controls Over Water and
                        09703-0001-AT 07/24/12                                                           $79,000
 Service: 1                                                  Waste Disposal Loan and
                                                             Grant Program
                      Grand Total	                                                  42              $280,600,339       $24,054,758   $117,124,151
a
 	 Unsupported values are included in questioned values.
NOTE: Upon final report issuance, fast report monetary values will be reflected in the inventory of audit reports.




                                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half       41
                                                           Impact of the OIG




In total, OIG has seven audits without management decision. Their details are provided in the tables below:

                                              NEW FOR THIS REPORTING PERIOD
                                                                                                Total Value at      Amount With No
   Agency      Date Issued                           Title of Report                              Issuance          Mgmt Decision
                                                                                                 (in dollars)         (in dollars)
 Multi-                      Fiscal Year 2011 Federal Information Security Management
                11/15/11                                                                             $0                  $0
 agency                      Act (50501-0002-12)
 Total New For This Reporting Period: 1




The audits in the following table are still pending agency action or are under judicial, legal, or investigative proceedings. Details
on the recommendations where management decisions had not been reached have been reported in previous SARCs. Agencies
have been informed of actions that must be taken to reach management decision but, for various reasons, the actions have not been
completed. The appropriate Under and Assistant Secretaries have been notified of those audits without management decisions.

                             AUDIT REPORTS PREVIOUSLY REPORTED BUT NOT YET RESOLVED
                                                                                                Total Value at      Amount With No
   Agency      Date Issued                           Title of Report                              Issuance          Mgmt Decision
                                                                                                 (in dollars)         (in dollars)
                             Hurricane Relief Initiatives: Livestock and Feed Indemnity
 FSA            02/02/09                                                                          $1,866,412             $427,276
                             Programs (03601‑0023‑KC)
                             Implementation of the Agricultural Risk Protection Act
                09/30/03                                                                                      0                   0
 Multi-                      (50099‑0012‑KC)
 agency                      Effectiveness and Enforcement of Debarment and
                08/16/10                                                                                      0                   0
                             Suspension Regulations in USDA (50601-0014-AT)
                             RMA’s 2005 Emergency Hurricane Relief Efforts in Florida
                03/04/09                                                                        $217,256,417         $217,256,417
                             (05099‑0028‑AT)
 RMA            09/16/09     RMA Compliance Activities (05601‑0011‑AT)                                        0                   0
                             Citrus Crop Indemnity Payments from Hurricane Wilma in
                09/07/11                                                                         $44,059,385          $44,059,385
                             Florida (05099‑0029-AT)
 Total Previously Reported But Not Yet Resolved: 6




42     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                        Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION—                                   INDICTMENTS AND CONVICTIONS
NARRATIVE FOR NEW ENTRIES
                                                                      From April through September 2012, OIG completed 189
Fiscal Year 2011 Federal Information Security                         investigations. We referred 232 cases to Federal, State, and
Management Act (FISMA) Audit Report 50501‑0002-                       local prosecutors for their decision.
12), issued November 15, 2011                                         During the reporting period, our investigations led to 459
OIG found that USDA and its agencies have taken actions               indictments and 320 convictions. The period of time to
to improve the security over their IT resources; however,             obtain court action on an indictment varies widely; therefore,
additional actions are still needed to establish an effective         the 320 convictions do not necessarily relate to the 459
security program. In our FISMA audits for FYs 2009 and                indictments. Fines, recoveries/collections, restitutions, claims
2010, OIG made 33 recommendations for improving the                   established, cost avoidance, and administrative penalties
overall security of USDA’s systems.  By the end of FY 2011,           resulting from our investigations totaled about $57.5 million.
the Department had adequately remediated and closed                   The following is a breakdown, by agency, of indictments and
6 recommendations, leaving 27 to be addressed.  OIG made              convictions for the reporting period.
an additional 10 recommendations to the Department and its
agencies in our current report.  We have achieved management
decision on 3 of the 10 recommendations contained in the
report and continue to work with OCIO to reach management
decision on the remaining recommendations.



                                      INDICTMENTS AND CONVICTIONS—April-September 2012
                     Agency                               Indictments                                     Convictions*
                      AMS                                        0                                                2
                     APHIS                                       8                                               30
                       ARS                                       3                                                2
                       FAS                                       0                                                0
                       FNS                                      387                                            234
                        FS                                        3                                               3
                       FSA                                       17                                              21
                       FSIS                                      13                                               4
                     GIPSA                                        0                                               4
                      Multi                                       1                                               0
                      NRCS                                        2                                               2
                       RBS                                        4                                               4
                       RHS                                       14                                              11
                      RMA                                         6                                               3
                       RUS                                        1                                               0
                      Totals                                    459                                             320
 * This category includes pretrial diversions.




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half             43
                                                            Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                    period, the hotline received 1,986 complaints, which included
                                                                       allegations of participant fraud, employee misconduct, and
The OIG hotline serves as a national intake point for reports          mismanagement, as well as opinions about USDA programs.
from both employees and the general public of suspected                The following tables are a summary of the Hotline complaints
incidents of fraud, waste, mismanagement, and abuse in                 for the second half of FY 2012.
USDA programs and operations. During this reporting



                                            Hotline Complaints Summary—FY 2012, 2nd Half
 Total Number of Complaints Received                                                                           1,986



   Figure 1. Volume and Type


                                                                                              Participant Fraud (1,326)




                   Employee Misconduct (143)

                   Reprisal (1)
                   Bribery (1)


                   Opinion/Information (170)

                   Health/Safety Problem (47)                                              Waste/Mismanagement (298)



   Figure 2. Disposition of Complaints Received

       Referred to Other Law                                                                            Referred to USDA Agencies
       Enforcement Agencies (3)                                                                                for Response (539)

       Referred to OIG Audit or
       Investigations for Review (153)
       Referred to State Agencies (17)

       Filed Without Referral–
       Insufficient Information (55)                                                             Referred to FNS for Tracking (883)




       Referred to USDA or Other Agencies
       for Information–No Response
       Needed (336)




44     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
                                                                 Impact of the OIG




                         FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
                                      FOR THE PERIOD April-September 2012
                     Categories                                                          Type                               Number
                                                         FOIA/PA Requests Received                                            69
                                                         Granted                                                               4
FOIA/PA Requests Received/Processed                      Partially Granted                                                    17
                                                         Not Granted                                                           8
                                                         Total FOIA/PA Requests Processed                                     57
                                                         No Records Available                                                 14
                                                         Referred to Other Agencies                                            2
                                                         Requests Denied in Full Exemption 5                                   0
                                                         Requests Denied in Full Exemption 7(A)                                8
                                                         Requests Denied in Full Exemption 7(C)                                0
Reasons for Denial                                       Request Withdrawn                                                     4
                                                         Fee-Related                                                           1
                                                         Not a Proper FOIA Request                                             0
                                                         Not an Agency Record                                                  0
                                                         Duplicate Request                                                     0
                                                         Other                                                                 7
Requests for OIG Reports From Congress and               Received                                                              3
Other Government Agencies                                Processed                                                             3
                                                         Appeals Received                                                      5
                                                         Appeals Processed                                                     7
                                                              Completely Upheld                                                4
Appeals                                                       Partially Reversed                                               0
                                                              Completely Reversed                                              2
                                                              Fee-related reason                                               1
                                                              Other                                                            1
                                                         OIG Reports/Documents Released in Response to Requests               16
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 38 audit reports were posted online on the OIG Website: http://www.usda.gov/oig




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half     45
                                                             Impact of the OIG




Abbreviations
Abbreviation Full Name                                                   Abbreviation Full Name
AIP               Approved Insurance Provider                            NFC          National Finance Center
AMS               Agricultural Marketing Service                         NIFA         National Institute of Food and Agriculture
APHIS             Animal and Plant Health Inspection Service             NITC         National Information Technology Center
ARS               Agricultural Research Service                          NRCS         Natural Resources Conservation Service
CACFP             Child and Adult Care Food Program                      OAO          Office of Advocacy and Outreach
CCC               Commodity Credit Corporation                           OASCR        Office of the Assistant Secretary for Civil
                                                                                      Rights
CED               County Executive Director
                                                                         OCFO         Office of the Chief Financial Officer
CIGIE             Council of the Inspectors General on Integrity
                  and Efficiency                                         OCIO         Office of the Chief Information Officer
CHST              collect, harvest, store, and transport                 OIG          Office of Inspector General
CRP               Conservation Reserve Program                           OPM          Office of Personnel Management
DNS               Domain Name System                                     PA           Privacy Act
DOJ               U.S. Department of Justice                             RBEG         Rural Business Enterprise Grant Program
E. coli           Escherichia coli O157:H7                               RBS          Rural Business-Cooperative Service
EBT               electronic benefits transfer                           Recovery     American Recovery and Reinvestment Act of
                                                                         Act          2009
EPA               U.S. Environmental Protection Agency
                                                                         Recovery     Recovery Accountability and Transparency
FAS               Foreign Agricultural Service
                                                                         Board        Board
FBI               Federal Bureau of Investigation
                                                                         RD           Rural Development
FEMA              Federal Emergency Management Agency
                                                                         RHS          Rural Housing Service
FISMA             Federal Information Security Management
                                                                         RMA          Risk Management Agency
                  Act
                                                                         RUS          Rural Utilities Service
FNS               Food and Nutrition Service
                                                                         SARC         Semiannual Report to Congress
FOIA              Freedom of Information Act
                                                                         SBA          Small Business Administration
FS                Forest Service
                                                                         SBIR         Small Business Innovative Research
FSA               Farm Service Agency
                                                                         SIGAR        Special Inspector General for Afghanistan
FSAN              Financial Statement Audit Network
                                                                                      Reconstruction
FSIS              Food Safety and Inspection Service
                                                                         SITC         Smuggling, Interdiction, and Trade
FY                fiscal year
                                                                                      Compliance
GAO               Government Accountability Office
                                                                         SNAP         Supplemental Nutrition Assistance Program
GIPSA             Grain Inspection, Packers and Stockyards
                                                                         TEFAP        The Emergency Food Assistance Program
                  Administration
                                                                         USAID        U.S. Agency for International Development
IG                Inspector General
                                                                         USDA         U.S. Department of Agriculture
IPERA             Improper Payments Elimination and Recovery
                                                                         WIC          Special Supplemental Nutrition Program for
                  Act
                                                                                      Women, Infants, and Children
IRS               Internal Revenue Service
IT                information technology




46        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 2nd Half
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS REPORTING
PERIOD (174 TOTAL)
σσ    FSIS officials agreed to provide the beef processing industry with clearer guidance regarding how plants should respond to sudden
      increases in positive E. coli tests.
σσ    Departmental officials agreed to ensure that grants awarded by OAO were awarded to the most meritorious applicants.
σσ    FNS agreed that it should make better use of its existing tools for detecting fraud, waste, and abuse in SNAP.
σσ    OCIO agreed that it needs to improve how it prioritizes and funds IT security improvements.


OIG MISSION
OIG assists USDA by promoting effectiveness and integrity in hundreds of Department programs. These programs encompass
a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural production,
agricultural product inspection and marketing, rural development, research, conservation, and forestry. They affect our citizens, our
communities, and our economy.



OIG STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our four goals:
σσ    Strengthen USDA’s ability to implement safety and security measures to protect the public health as well as agricultural and
      Departmental resources.
σσ    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
σσ    Support USDA in implementing its management improvement initiatives.
σσ    Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the
basis of race, color, national origin, age, disability, and where applicable, sex, marital status, familial status,
parental status, religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or part
of an individual’s income is derived from any public assistance program. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720–2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue,
S.W., Washington, D.C. 20250–9410, or call (800) 795–3272 (voice) or (202) 720–6382 (TDD). USDA is an equal
opportunity provider and employer.
